     EFFCf PATERN             ESTABLISHMNT       PRACfICES


                    TECHCAL             REPORT




RICHAD P. KUSSEROW
INSPECfOR GENERA

OAI 06- 89- 00911                                   JANUARY 1990
For Further Information:    A condensed executive version of the report and
additional copies of this technical report are available from the Superintendent of
Documents , Government Printing Office , Washington , D. C. 20402.
                             EXCU SUMY

PUR
This report describes effective State and local paternity establishment practices
barriers to a succssful paternity establishment program, and perceptions of the
program s cost/bnefit.


BACKGROUN

The Congress, concerned by the increasing costs of the Aid to Familes with
Dependent Children (AFC) program, amended the Social Security Act in 1975
1984 and 1988 to create and then to strengthen the Child Support Enforcement
(CSE) program. The 1988 amendments required State CSE programs , for the first
time , to meet a specific paternity establishment percentage.

Two recent evaluations of States ' performance in child support enforcement
conducted by a U. S. House of Representatives subcommittee and the General
Accounting Offce show that many States are not pursuing paternity establishment
vigorously and successfully. These findings have serious cost implications for the
States because States are subject to fiscal penalties if they cannot meet their
paternity establishment percentage goal, and most paternity suits are brought in
behalf of single mothers applying for AFC.

We intervewed 77 managers , supervsors and legal personnel at 13 effective practice
sites about barrers and key improvements to the paternity establishment process.
We defined effective practices as procedures which improve the number of
paternities established, case decision accuracy and/or case management effciency.


EFFCT PRACfCE SUMY
States should consider adopting the following seven   effective practices to improve
paternity establihment in their Child   Support Enforcement programs.


SOUCl SUPORT

Actively solicit the support and commitment of top management, the judiciary,
legislators and the community for the paternity establishment program. Through
them the effective practice sites were able to increase program resources , streamline
adjudication , increase paternity establishments and change paternity laws.
Cl         REPONSmIL
Decide whether   AFC, Child Support or other staff should be responsible for
obtaining necessary intake information about the putative (alleged or supposed)
father so that paternty establishment can be pursued. Then provide the needed
resources and hold the staff accountable.


PROMOTE COPERATION

Develop better techniques for convincing parents to cooperate with the process.
Effective practice sites have proven strategies for overcoming parental resistance , a
major barrer to paternity establishment.




ST               ADJUICATION

Simplify adjudicative procedures whenever possible under State law and try to
minimize time spent in court. The effective practice sites have achieved this , and the
Congress, in amendmen to the Child Support Enforcement program has
encouraged streamlining of adjudication.


INST CASE CONTOLS
Institute a case control system to identify, age and monitor the status of the paternity
establishment caseload. Whether automated or manual, systematic case management
is crucial to processing all caes in a timely and accurate manner.


SIMLI CASE PROCING
Evaluate case processing to simplify it, increase effciency and reduce duplication of
effort. The effective practice sites improved in several ways, e. , computer-
generated documents , elimation of overlapping staff duties , and at intake screening
out clients who cannot use Chld Support Enforcement servces.


IMROVE STAFG
Re-evaluate the number, duties, capabilties and division of labor of present staff.
Hire enough staff to do the job; consider improving staff capabilty by specializg
staff functions and/or contracting for paternity establishment servces.
                             ............................................
                                                        .............................
                                 ...... ....................                                 ..................
                                                             .......................................
                                                                                       .............
                                                                               ..............         .......
                                                                                                      . .......
                                                                                              ............       .......................................
                                                                                                              ..........................




                                              TABLE OF                 CONT


EXCU SUM                              Y........................................................................................................ i

INODUCfON
     Purpose.................... ......................................................................................... .................. 1
     Background.. ......                                                                           ..................................... 1
     Methodology...................................................................... ......... "'''''..'''.'''''''''''''''''''''''''. 4

SUMY OF SIT                      DA T A...................................................................................... ............ 6

PATERN ESABUSHM PROC
     Initial Intake Procedures......................... .............. 

     Location of the Putative Father...................................................................................

     Case Confrontation/ Adj udication........ ........ .......... ................................................. 13

IMORTAN MAAGEM. FACfORS
     Systema tic Cae Management. ...................................... ................ ............................... 17
     More Effective S taff Utiliztion......................................................................... ......... 20
     Top Management Commitment...................................................'..'......'.'........""""" 22

PERCEONS OF                   PATE ESABUSHM
     Importance of Paternity Establishment....................................................................

     Cost Effectiveness of Paternity Establishment..................................................... 24

EFCT PRACfCE SUMY
      Solicit Support for the Paternity Establishment Program..................................... 26
      Clari Responsibilty for Obtaining Intake Information .................................. 27
      Promote Improved Parental Cooperation ............................................................ 27
      Streamline Adjudication of Paternity Cases........................................................... 27
      Institute Effective Case Management Controls................................................. 28
      S implify      Case Processing ...                                                            ............................. ........ .......... 28
      Upgrade and Improve Staff Utilzation............................................................ 28

APPENICE..........                                                                                                                    ..... .......... 29


      Appendix A: Study Methodology

      Appendix B: Individual Site Profies
         ~~~
       ...........,.....
 ..,".............,.
"""......
  ..............
 ....
 ...                       ..
          .....,............ . .....................
                            ...   .................,.

                           .'...................................
                   ""...............-...
..........................
...............,........
     ........,......,
     ....
.......,
........                       .......
                               ...............
                                 .............   .......
                                                ...
                  ............,....................                     ~~~~
                                                                    . ..... .....
                                                                   ..........
                                                                   .......
                                                                        . .....
                                      .......................................
                                           .......,-
                                                  ..... ........................
                   ................................
                            ........                              .....
                                                         ................
                                                          ...................    .......
                                                                                ......
                                                                                   ....
                                                                                    .....
                                                                              ...........
                                                              .............,.'...
                                                              ........,-,-,....   .......
                                                                                   ......
                                                                                   .......
                                                                                   .......   . .."'........
                                                                                         ......
                                                                                           """'
                                                                                          .....
                                                                                      .............        ...
                                                                                                         ........
                                                                                                       .....                     . ..""""""""",
                                                                                                             .......--..............
                                                                                                                   .........."""
                                                                                                                  ...                 .................
                                                                                                                             .........................
                                                                                                                             ..............                ..
......
                                                                                                                                            ..........'..........
                                                                                                                                            .........
                                                                                                                                             . ...          ......
                                                                                                                                                                .




                                         EF PATE
                                              TECA
                                                                                                                                           ESABUSHM PRACfCE
                                                                                                                                             RERT

                                                                                                                       OAI               0611
                                                                                                                    INODUCfON

PURE
This report describes                                                      effective State and local paternity establishment practices
barrers to a succssful                                                       paternity establishment program , and perceptions of the
program s cost/bnefit.


BACKGROUN

                            pglfql                            lre                   m......



Beginning in 1967, the Congress , concerned by the increasing costs of the Aid to
Familes with Dependent Children (AFC) program, amended the Social Security
Act to require States to attempt to establish paternty and obtain support for AFDC
children.

Other amendments in 1975 , 1984 and 1988 created , and then strengthened , the
current Child Support Enforcement Program (CSE). Participation in the Child
Support program became a condition of AFC eligibilty. The 1988 amendments
will require States , for the first time , to meet a specific paternity establishment
percentage beginning in fiscal year 1992. States not meeting their percentage goals
wi be subject to fiscal penalties.
In addition ,                             according to a "The New York Times " article (July 21 , 1989) nearly
285          00 paternty suits are fied nationwide ev                                                                                                            ry year. Most of these paternity suits
are brought by CSE agencies in behalf of single mothers who have applied for
AFDC. Women receiving AFDC have assigned their support rights to the CSE
agency. If regular child support payments were made following paternity
establishment, AFC program costs for these families may be reduced.
              h........ .' .


!!ml_ iii                                                                                                      .IIIII_II                                       :!i:.!:




Beyond the value of reduced welfare costs, Congress , as well as researchers and
social work professionals , also recognize that many other social and financial benefits
..!:'
...
!...     ......
          .......,...   ........, ........ pg!...
                 -, ...........,-......
 .......,............................
                                    .....".
                                        ...
                                   p.....        q!!!
                                           ..... """-""""""
                                         ..,..,...
                                   ...........,...            ...........,..,  .....
                                                    ............,.............,-,..
                                             '...........,-      ::! ........,..,...
                                            ..,............,,-,...
                                                   ............  .............,....
                                                                         ""',.,-,"




 may accrue from paternity establishment. These include the child' s access to
 government benefits such as social security, health cae through the father
 employer-provided plan, ineritance rights, importt genetic and medical history
 information, and strengthened emotional growth and development through a sense of
identity.


                                                                                       lltll   miil

Two recent evaluations of States ' performance in child support enforcement show
that many States are not pursuing paternity establishment vigorously and successfully.
In October 1988, the Hous Subcmmittee on Public Assistance and Unemployment
Compensation released a report card of performance. The mean State paternity
establishment rate was 31 percent (paternties established in fiscal year 1987 divided
by births to unmarred mothers in 1985). Thrt-two States scored below 30 percent;
45 scored below 50 percent.

In April 1987 ,the General Accounting Offce (Child Support: Need to Improve
Effort to Identify Fathers and Obtain Support Ordm, GAOIH- 87- 37) found that
4 of every 10 AFDC sampled children who needed paternity determinations for
support orders (61 percent) or just support orders (39 percent) did not receive them
because their cases were never opened , were closed prematurely or remained open
but unattended.



National data reported by the CSE program does show that, in fiscal year 1987, a
total of 269 00 paternities was established. This was a 10 percent increase over the
prior fiscal year.
        '....n..........,....
..n............,....... ....n
..

             aRi!H
                                                                      !gi.......



The Offce of Child Support Enforcement (OCSE) within the Family Support
Administration (FSA), Department of Health and Human Servces (DHHS) is
responsible for establishing Federal program standards and ensuring effective State
programs. Their activities include promulgating regulations, ongoing reviews of
program operations (paternity establishment performance is a specifc component),
disseminating program information through traing conferences and professional
publications , and funding demonstration projects for program improvement.

States have oversight responsibilty, but use a variety of organizational models to
administer their operations. Whatever the model, child support enforcement tyically
consists of three major steps: establishing paternity, obtaining a support order , and
collecting/enforcing support payments.  Paternt; establihment, however, is the
fundaenta fit step from which the others follow.
......  ,.......
.. ....... .. ~~~...........,,"... ..
.. . '....
                               ..... """
                             ....                 ...........
                                            ..,-"""""''''''     ...,...  .....            ~~~
                                                                           ... .......,..........."..
                                                                                   .............."....
                                                                    , '''''''''''''''''''''''''
                                                                  "..   ...                     ,'. '           ~~~
                                                                                                          .................
                                                                                                             ....... ......
                                                                                                      ' ................,
                                                                                                                        ;:;,'.




                                                      PATERN ESABLISHMNT PROCES
                                                                                 INORMATION FLOW





                                             CONFONTATION




n....... '........... ...... .

             ...................... "n -""""""""'"'''''


::li                      :li,fftg%II
There are                 four seuential steps in the tyical paternity establishment process:                                    intake
location , confontation and adjudication. (See exhibit " Paternity Establishment
Process Information Flow" above.

                                  Intae begins                                         learn the identity of
                                                                         with an intervew of the mother to
                                  the child' s father, his address and his willngness to admit paternity.
                                  Failure of the AFDC mother to cooperate here , or at other points in
                                 the process ,                     may result in fiancial sanctions to her.
              Lotion. A CSE caeworker tries to establish a location and address
              for the putative (alleged or supposed) father based on the information

              obtaed from         the mother.


              Confontation. The putative father is notified of the paternity
              allegation, often through legal servce of a summons and complaint.
              He is also inormed of his rights and responsibilties.

              Adjudication    the legal disposition of the paternty allegation for the
                             is

              putative fathers that voluntariy admit paternity or could be con
              fronted. Procedures for      this phase vary greatly among jurisdictions due
              to differences in State laws. Due process is a key concern.



MEOOOLOY
Ths inspection focused on effective practices of paternty establishment up to , but
not including, the issuance of the child support order. We defined "effective
practices " as procedures which increase the number of paternities established , case
decision accuracy, and/or case management effciency.

Our sample , selected by a 3-tiered     screening process based on literature review
expert' recommendations and national data is judgmental and consists of 77
respondents at 13 effective practice sites in 12 States: Pulaski County (Uttle Rock),
Arkansas; Sa Fraci, California; Santa Barbara County (Sata Barbar),
California, New Castle County (Wilgtn), Delaware; Fulton County (Atlanta),
Georgia; Cook County (Chcago), Ilinois; Marion County (Indianapoli), Indiana;
Price Gerge s County, Maryland; Wayne County (Detroit), Michigan; Dakota
County, Minnesota; Phiadelphi Pennsylvania; Shelby County (Memphi),
Tennessee; Salt Lake County (Sat Lae City), Utah. (See Appendix A for details of
the study methodology.

During the site screening, we also derived a set of characteristics for an ideal
paternity establishment process to serve as a reference in describing effective
practices. (See exhibit " An Ideal Paternity Establishment Process " on the next    page).
.......'...            --_
 ...
                            .. ................
                     ................... ,      ... .....,--

                                                 .... ........".....---
                                                                     ...            .......... .........
                                                                           '.',..........                                     ........ ,--,.....




                                                                 SUMY OF SIT                               DATA




111
Al thireen sites were selected because they were perceived by people
                                                                               1,.1.8111
knowledgeable in the field as effective in paternity establishment. Each site
however, is also unique in its administrative procedures, sta size and duties
population, paternty laws , and perceptions by their management and legislators. (See
Appendix B for individual site profies.

Compared to the "ideal" model and even by their own assessment none of the sites
has a perfect paternty establishment system. The sites see a need to improve
performance , and most have plans for future refinements. Compared to each other
the sites are in different stages of evolution. Some had instituted just one or two
changes that had made a marked difference in their effectiveness; others had made
many changes over several years.



        .... ,--n...........

                     ...."'''''''''' ,n,,",........   t!I!JI."'.il.'''
                                                  '....n",.....                                               n.,... .....



                                          barers to effective paternty
The greatest and most frequently reported 


establishment are the parents and the adjudication process.

                           The mothers provide incomplete or no information about the putative
                           father due to a lack of understanding of the benefits of paternity
                           establishment and other factors.

                           The fathers do not want to accept parental responsibilty.

                           The adjudication of paternty cases is restrained , delayed and
                           complicated by State laws and procedures.

Other less frequently mentioned barrers are: diffculties in locating the putative
father, lack of community interest , and belief that paternity establishment is not
important, not cost effective                             or too diffcult to adjudicate.


The most frequent 
key improvements made in sites ' paternity establishment
procedures included improved case processing and management , and streamling of
case adjudication. Additional staff and staff specializtion were also lited as positive
             BARR I ERS AND IMPROVEMENTS
          THE PATERN I TY ESTABL I SHMENT PROCESS


                                                                     FATHER CANNOT BE SERVED




  AFDC / CSE COOPERA T I ON
                                   BARRIERS                           LEGAL PROCESS COMPLEX



                                                                      BENCH DOES NOT A I D OR
     PROCESS DELAYS
                                                  UNDERSTAND PATERN I TY
                                                                      EST ABL I SHMENT


MOTHERS DO NOT UNDERSTAND

BENEFITS OF PATERNITY
                  CASES LOST OR
                LEGAL SYSTEM INHIBITS
ESTABL I SHMENT                         UNA TrENDED                   PATERNITY ESTABLISHMENT



       CASES LOST OR
                  INADEOUATE LOCATE
             PARENTS CANNOT AFFO

       UNA TrENDED                     SOURCE I NFORMA T ION          BLOOD TESrS



    INSUFFICIENT STAFF
                                              FATHER FAILS TO ATTEND

                                      INSUFFICIENT STAFF
            HEARINGS OR BLOOD TEST



      MOTHER ALLEGES                 FATHER CANNOT BE

                                     FOUND THROUGH
                         I NSUF F I C I ENT COURT
      SHE DOES NOT
                                                         TIME /PERSONNEL
      KNON FATHER
                   AVA I LABLE CHANNELS




        INTAKE                            LOCA TE                CONFRONT            ADJUD I CATE




    IMPROVE RELA T IONS
   WI TH AFDC                                                      CONTRACT FOR LEGAL SERVICES



     CSE DOES I TS OW
     DATA COLLECTION
                                                          CHANGE LAWS



 REDES I GN OR STREAML I NE
 PROCEDURES                       IMPROVEMENTS                         EXPEDI TE - ALLOW

                                                                       VOLUNT ARY ADM I SS IONS


I MPROVE I NFORMA T I ON AND
PRESENT A T ION OF PA TERN I TY                                         EDUCATE JUDICIARY
EST ABL I SHMENT BENEF I TS                                             AND PUBL I C


   STRENGTHEr. "ASE                                                  DEVELOP PROCEDURES THAT

   MANAGEMENT CONTROLS                                               NEGA TE OR REDUCE NEED
                                                                     FOR COURT TIME


   ADD/SPECIALIZE STAFF                                                USE HEAR I NG OFF I CERS
                                     ADD/SPECIALIZE STAFF

                                                                       OR MED I A TORS



     APPL Y SANCT IONS
               STRENGTHEN CASE
                 AGENCY FRONTS BLOOD

                                      MANAGEMENT CONTROLS              TEST FEES



    PERS I STENT CAREFUL
                                   CONTRACT FOR I NFORMA T ION
                                   SOURCES: E. G. CREDIT             BLOOD DRAWS ON PREM I SES
    I NTERV I EWI NG
                                   BUREAUS                           WH I LE PARENTS ARE THERE


INTERVIEW MOTHER ON DAY             SOLICIT AID/INFORMATION

SHE ALSO APPL I ES FOR AFDC         FROM THE CDMUN I TY             INCREASE COURTS/PERSONNEL

changes by many respondents.          Support from the community, legal groups and
private agencies , as well as   legislative interest , were also important.


A summary of barrers faced by Child Support programs in establishing paternity and
improvements made to overcome these barrers are summaried in the exhibit
 Barrers and Improvements to the Paternity Establishment Process " on the prior
page.


                     PATERN ESABUSHMNT                    PROC

IN INAK PROCUR
Ideally, caseworkers are trained to obtain information essential to paternity
establishment, such as the name and address of the putative father. The effective
practice sites have devised 
 solutions to the major initial intae barers
1) unsatisfactory AFC performance in obtaining basic intake information, and
2) the mothers ' non-cooperation with the paternity establishment process.




AFC generally has the first contact with the unwed mothers. Most Child Support
staffs (10 of 13) believe that AFC staffs are ineffective in obtaining even basic
information about the putative father. Some respondents are quite critical (tlAFC
just doesn t seem to care ), and some see AFDC as having its own problems and
different program concerns. One respondent pointed out that AFDC picks up more
information than is passed on to Child Support.



Child Support staffs gather their own information

Child Support staffs solve the problem of incomplete AFDC intake information
primarily by gatherig the data themselves. Three sites do not rely on AFDC for
information. Seven routinely do a follow-up intervew to the AFC intake intervew
and two do a follow-up intervew when needed. Respondents at these same two
sites added that AFC does not consistently obtain the needed information. Several
which do follow-up noted they can get what they need by telephone.

The CSE respondents listed , on average, 12 basic pieces of information they try to
collect, other than a name , such as aliases , physical description and birh data. All
staffs , but one , agreed that some items are more critical than others. Frequently
mentioned were: address , place of employment, social security number and date of
birth.
                              , "




More training of AFC staff to improve intake information

When asked about cross-training for the AFC staff, nine Child Support staffs said
they have done some, but most do it less than yearly. The content and purpose are
basically intended to improve rapport between Child Support and AFC staffs , and
to explain CSE' s need for the information on the putative father.

Price George s County CSE intae/locate unit told us that in September 1988 they
staed to work with AFC to clear caes for the work program.

       We got together with AFC and explained if they gave us good information
       we could work the cases much quicker. We also checked cases and returned
       those that were incomplete. We ended up with a better working
       relationship.... The main barrier was the negative attitude of what we thought
       AFC did and what AFC thought we did.
In 1989 Wilmington trained its AFC workers on how to view clients diferently.
The AFC workers are encouraged to see welfare as something temporary, clients
as competent, and paternity establishment as helping them. This approach changes
the workers ' perceptions of clients and improves intake information qualty.

Conducting AFC and Child Support intake intervews on the same day

Under an ideal process , staff take action to establish paternity as early as possible in
the life of the case. Prince George s County, Santa Barbara and Wilmington each
had positive experiences with coordinated intake intervews and prompt paternity
establishment actions.

For 1 year Prince George s County sent CSE workers to the AFC offce to do the
intake intervews. "We got fantatic information. We knew what we needed, and the
clients were a lot more cooperative because they felt their grants depended on it.
Unfortunately, we did not have enough money to continue funding (the project).

At all three Santa Barbara intake offces CSE now coordinates with AFC staff to
conduct intake intervews on the same day. Prior to mid- 1989, the site had 1 offce
which did follow-up intake intervews 6 to 10 weeks after AFC's. CSE staff
believed they obtained better information about the putative father when they
conducted same day intervews because the mothers were more impressed then with
the seriousness of the process.



Wilmington physically co- locates Child Support caseworkers with AFC staff. The
advantages of co- location are It saves time and gets the cases processed much
 "......., ....." .. ..... "....," 
        , "   .......




faster. AFC and Chld Support have a much better relationship. The key thing is
that we are able to conduct more intervews. There were no barriers to this.


                           1:1      "II-JlI1
The other major intake barrer is convincing
                                                                         jii
                                              the mother to cooperate in   establishing.
paternty. Failure to cooperate is defined almost uniformly   by the respondents as
refusal to keep appointments for intake intervews , legal hearings and blood tests
and refusal to divulge information about the putative father. Refusal to divulge

information is the aspect of cooperation which concerns respondents the most.

Exlaining paternity esta1:hment benefits to mot
Al the sites provide the mother with information on the benefits of establishing
paternity as a tool to obtain her cooperation. All the site staffs explain them to her
verbally, six give her written material, usually pamphlets , and Santa Barbara uses a
prepared audio/vsual presentation of which child support enforcement servces is a
segment. Most of the site staffs explain the future legal and financial benefits to the
child if the father is known, or just generally stress the importance of identifyng the
father. Several stress the importance to the child of knowing both parents.


Chicago , funded by DHHS , is also piloting Project Advance which targets the . needs
of young mothers. At least once a week a family support specialist intervews the
mothers at the pilot offces after the mothers have participated in a workshop to
discuss what child support is , the advantages of paternty establishment and the
untruth of popularly believed myths such as If you name the father, he will be
locked Up. " Although findings are preliminary, the workshop participants seem to
view the process as less adversarial, are better prepared for the intake intervew, and
are more willng to cooperate.

When we specifically asked the staffs how they reduce non-cooperation , eight said
they explain the future benefits available to the child. Other approaches were

makig an emotional appeal to the mother about her child , reminding her the father
has a responsibilty to the child and convincing her that the CSE program can help.

Financial penalties as incentives for mothers to cooperate

The penalty for non-cooperation at all sites is the removal of the mother from the
AFDC grant, thereby reducing the amount of cash assistance she receives. Two
sites , at which AFC and CSE do intake intervew on the same day, can exclude the
mother for non-cooperation with CSE intake early in the process. Many of the
sampled site staffs would like to have this option. Four of these sites also designate
a new grant payee. Salt Lake City and Dakota County make vendor payments for
the mother, which means she receives no check from AFC; instead the site pays
her bils on her behalf.



Seven staffs specificall said they try to reduce non-cooperation by explaining the
penalty and using it if necessary. . The San Francisco director, however , said the
Agency " rarely" penalizs. Here a welfare advocacy group had complained that the
agency was too aggessive in askig about the putative father and in using non­
cooperation sanctions. The site modifed its procedure by offerig the mothers an
opportunity to sign a declaration about the putative father under penalty of perjury.
The procedure is now required State-wide.

The use of the penalty for non-cooperation ranged among the sites from 1 case in 10
to 1 in 50. Two site respondents qualified their answers by saying that they
recommend penalties at a certin   frequency, but the actual penalty rate is smaller
since many mothers apparently think it over and do eventually cooperate.

Prince George s CSE staff (most sites rely on AFDC staff has had the authority for
a year to sanction the uncooperative mothers. The benefit has been , according to
the respondent, "the mothers saw we meant business and some of the pressure was
taken off AFC."

Persistent. careful intervewing of mothers alleging they don t know who the
father is

If the mother says she doesn t know who the father is , most of the Child Support
intake staffs , nevertheless , continue aggessive and persistent intervewing.
Respondents told us they ask her to explain why, ask her to name the men who are
the most likely, tell her they don t believe her and ask again , ask detailed questions
concerning the time frame when she became pregnant, or have other staff intervew
her.

Some sites may intervew collaterals. Memphis has the custodial parent supply them
with the names and telephone numbers of people who can verify her circumstances.
The workers find these contacts very useful in supplying information about the
absent parent that the mother might not divulge.

Salt Lake City sometimes requires the mother to document, as part of cooperation
that she doesn t know who the father is. This may include her obtaining sworn
statements from bartenders , friends, or neighbors saying they saw her with a man at
a particular time, but they didn t know who he was , nor had they seen her with him
before. A caseworker estimates that initially 20 percent of the mothers say they
don t know the father, but, based on experience, the real percentage is substantially
lower.
      . ",    ;:      (( q,
        .p
                                   ",'?
         '"   .p




LOATION OF TH PUTATI FATHR



_1\ _I.I' !ii
A wide variety of information sources
                                                                                                                   1I1!!


A good location effort requires skill and emphasis by the Agency. This frequently
translated into using a wide variety of inormation sources. Those used by the
majority were locator servces (State and Federal), intervews with famiy members
and other   collaterals such as neighbors , the post offce, the department of motor
vehicles , State wage or taxation information , other programs managed by the same
State agency, the tax assessor and prison/criminal records.



                              SOURCES OF LOCATE                         I NFORMA T ION
                                        USED BY THE 13 SITES



  NUMBER OF RESPONSES





                      0 . 

                                                                       0
                                                                  (( RJ
           R-0 \)0        RJ

                         0 "0 ",
              tv -i 0 0v ,
                                                           fi
              0 0tv     0                 v.'?                                (f
                                                                                        (Q


            8"-t'? 0
            C;                     tv
                                                                                     :: ooy 0
               '" O

                              rt




                                                                * Q1t              RY: BANKS- 3; VOTER REG I STRATI ON- 3;
                                                                COURT RECOR05-2; EMPlOYERS- 2;MI l ITARY- 2;OEPT. OF
                                                                 lABOR- 2; PROFESS IONAl BOARDS- 2; UN IONS- 1
Specializd staffs. follow-up intervews and community public relations efforts

Four sites have specialied location units: Atlanta, Price George s County,
Phiadelphia and Wilgton. Philadelphia, which also locates missing children, has
investigators that locte about 500 fathers a month. In addition to the link (many
automated) to the information sources already mentioned, they also work, if required
by the case, neighborhood churches , bars and grocery stores to obtain information
about the father.

Atlanta sends custodial parents a computer-generated form letter to solicit
information on absent parents as part of an annual Federal report on cases where
paternity has not been established. They achieve a 75 percent                                  response rate with 15
percent of returns providing good location information.

A Salt Lake City worker does presentations to large companies in the area
explain the work of Child Support Enforcement. As a result , Child Support staff has
successfully obtained the companies ' help in checking records for location and wage
information on the putative fathers.

As a one- time project, Memphis CSE published a list of men that it was tryng to
locate for open, but unworkable , paternity establishment cases. Businessmen
relatives and private citizens called in information that led to the location of absent
fathers. A Memphis respondent rated it " a             moderate success "                      that they would try
again.


CASE CONFONTATION/ADJUICATION

The adjudication system , often perceived as a complicated barrier to effective
paternity establishment, is usually dictated by State laws. Within the legal
framework, the effective practice sites try to use 
simple approaches when possible
and to 
    streae  the required procures. Twelve site staffs believe their systems
work well , citing: 1) expedited processes , 2) specialized courts and personnel
3) supportive public policy, or 4) a committed judiciary. (See exhibit "Typical
Adjudication System for Paternity Establishment" on the next page.
                                                        ...no,...................... """..-


:11              :P!f i,Si!.               JffpJ       prlF                               P$Y.
                                                                                  ""':')i...
                                                                                                  tlj YBI,'
 tq"                     m!'         #t'   iJicq

Simplifyng confrontation

In confrontation , seven sites use telephone calls , the mother s help or form letters to
make appointments with the putative father in the hope he will voluntarily admit
(stipulate) paternty. Failing that, they next issue a formal summons and complaint.
The other sites, given their more exacting legal processes , cannot or prefer not to
use informal methods. For example , State law requires servce of a summons and
complaint even if the man stipulates paternity, or a stipulated judgment is not
permissible without judicial involvement.





   TYPICAL ADJUDICATION SYSTEM FOR PATERNITY ESTABLISHMENT




                                   PUTATIVE FATHER

                                   CONFRONTED BY CSE.





                                             \I


  FATHER ST IPULATES               CASE REFERRED BY CSE              PUTATIVE FATHER
  TO PATERNITY OUT                 TO LEGAL COUNSEL;                 FAilS TO RESPOND,
  OF COURT.                        SUMMONS   COMPlA I NT             DEFAULT JUDGMENT
                                   F I LED AND SERVED.               I S RENDERED.




                                             \I


  TR I AL BY JUDGE                  PUT AT I VE FATHER               D I SM I SSAl   OF
  OR JURY                           RESPONDS, BLOOD
                 ACT! ON .
                                    TESTS PERFORMED.





Establishing paternity without court involvement

Eleven sites have a mechanism whereby a man can legally admit paternity without
court involvement (stipulated judgment, expedited process , consent decree , voluntary
acknowledgement). Atlanta and Indianapolis , which have implemented their
stipulation procedures in recent years , agree that the benefits have been cost savings
and improved timeliness in adjudication.
Salt Lake City and Prince George s County have provided special intervew training
to caseworkers who negotiate for voluntary admissions of paternity. In both
instances , the training improved performance. Attorney time was saved , and fewer
cases went to court for hearings.

Philadelphia, Memphis and Detroit, in addition to voluntary admissions of paternity,
use special negotiators to work out agreements before formal court appearances.
Philadelphia, even when a cae is scheduled for trial because an agreement can t be
reached, the District Attorney, who has the results of the blood tests in hand , tries
one last time in the courtroom , before the judge enters, to reach a settlement.

Chicago and Wilmington:     Increasing paternity adiudications by adding courts
or legal personnel

Because State law requires that all paternity establishments occur in court, Chicago
key improvement was to add more courts and the personnel to staff them.
Implemented in 1986 and 1987 , Chicago now has three full day parentage
courtrooms , four suburban courtrooms , and a larger legal staff. Facing large case
backlogs , the County successfully competed for a funding increase by convincing the
Chief Judge and others of the seriousness of the problem and the potential public
benefit. Their trend data shows a 44 percent increase in the number of paternities
established in 1988 compared to 1987.

Wilmington does not use voluntary stipulations because their legal counsel anticipates
a violation of due process. Instead , Wilmington uses court-based hearing offcers
called mediators and masters, to explain the man s rights to him and to negotiate
paternity and support agreements. As with the other sites, the putative father can
stil contest paternity before a judge.

Accelerating adiudication by effcient blood   testing. use of default judgments and
arrest warrants

Bloo tests are often required when the putative father denies or is uncertain about
the paternity allegation. Easy access to blood tests promotes timely adjudication.

Seven sites authorie   blood draws at   the Child Support office or court while the
parents are there for hearings or by regularly scheduled   appointments.   Memphis
staff commented this saves them money in wasted time on postponements and
finding a reluctant putative father a second time to blood test him. Philadelphia
negotiated a tWo-sample blood draw with its contractor to combat the problem of
redraws when samples are lost or misplaced. Generally, they are now assured of
having analysis results in 4 to 6 weeks.
Eleven sites pay for the tests initially, and then, may try to recover their costs from
the parente s). Several            site directors said this decreases delays and stallng tactics.
Chicago paid intially for more bloo tests in 1988 when they were able to increase
their budget for the tests. They said, " Discovery was started sooner. The benefits
were improved timeliness , elination of backlogs and more settlements.

If the putative father does not respond to the formal paternity allegation , he can be
named as the legal father by a 
default judgent. Twelve sites are authoried to use
a default judgment; fie invoke it soon after the deadle for responding to the
summons and complaint is passed, seven somewhat later in the adjudicative process.
Price George s County has no defaults                      arest wants for men
                                                      , but they do isue

who fail to appear for their heargs.

Memphis includes default language in all papers served to the putative father, e.
summons and notices of continuance , so that he has received due process regarding
defaults. Implemented to end stallng and avoidance tactics , the procedure reduced
waste of court time by defendants who failed to appear for hearings or blood tests.

Effcient case scheduling             improves timeliness of adjudication

Detroit uss a "docket-driven" system that dictates all actions and timing of paternity
procedures. When their attempts to obtain a voluntary acknowledgement fail , the
Child Support staff refer cases to the Wayne County Friend of the Court (FOC).
The FOC computer system immediately schedules the case into the court docket for
every possible action with due dates. The schedule includes blood testing which the
court orders routinely for contested caes. Letters advising the putative fathers of
the scheduled dates are also sent.

The legal documents needed for each court appearance are produced automatically
as actions fall due. The FOC sytem provides data on each case s age, current status
and future actions as well as summaries of specific tyes of actions that are
scheduled for upcoming months.

For Detroit, the streamlined cae scheduling instituted in 1988, combined with
improved trackig and the Chief Judge s certification of the FOC to negotiate and
accept paternty acknowledgements in 1986, have made a substantial difference.
Detroit had 3984 paternities established in 1987. In 1988 this number rose to 5800
and is projected to reach             66   in 1989.


Five other sites also effciently schedule their caes. Chicago uses its automated
                                                              Prince George
system to notify clients and putative fathers of all court dates.
County and Philadelphia schedule and notify the putative father of the next court
date when he is bloo               tested. Memphis will sometimes arrest putative fathers if they
fail to appear in cour. When the man is picked up, he has a hearing the next day.
He may either stay in jail overnight or post bond.

In Indianapolis   , al contested caes must go to court but under their system there
are gradations of "contested"  caes: the man admits paternity, but does not agree on
other issues such as the child support amount; the man disagrees with the paternity
allegation; the man disagrees with the paternity allegation and is represented by
counsel. These caes are grouped by tye and        scheduled for court on specific days.


Legislative and judicial support

Seven site directors believe legislative or judicial support is a factor   in their success.
Memphis and Price George s County are especially        complientary of the strong
leadership and support they receive from two judges , one per site , that guide
paternity adjudication. In Chicago, staff from CSE and the State Attorney s office
brief individual judges on the specific requirements and problems of child support
enforcement law.



                       IMORTAN MAAGEMENT                 FACTORS


SYSTTIC. CASE MAAGEM
Systematic case management , whether automated or manual , is critical to effective
paternity establishment. It promotes efficient movement of cases through the
process identifies the paternity establishment caseload , and helps assure that required
case actions are completed timely.




1_-
Automated case management systems
                                                        $lljllll lt.I'fi


Automated case management systems can be very effective , but their implementation
requires funding and long-range planning. Wilmington , Prince George s County,
Chicago and San Francisco have automated systems that can identify, track, age and
obtain information for paternity cases as they are processed. For Wilmington and
San Francisco, almost anything that is done for the case, including document
generation , is done through the automated system. Little Rock and Atlanta also do
some automated document generation.
Funding was a maj9r consideration addressed by long range planning and by
convicing senior management of the need for and benefits of the system.
Wilgton usd a steering committee, that formed a plan to consolidate several
agencies under an umbrella, to assess whom they were servcing and to study what
was available to them. Prince George s County installed a system designed by a
private company whose owner was famiar with the already operational New York
child support enforcement system.

San Francisco: A successful conversion from a manual to     an automated case
management sytem


Between 1986 and the summer of 1989,     San Francisco converted from an entirely
manual system to a fully automated system by implementing three major procedural
improvements.

Beginning in the summer of 1987, the Child Support offce started to use a " stand
alone " system application maintained at the site for document generation. The
application can generate up to 40 different documents including a summons and
complaint, default judgments , stipulated judgments , and various form letters such as a
locte inquiry. Prior to this time individual correspondence and documents were
tyed manually.
Also in 1987 ,San Francisco CSE initiated on-line intake with twce weekly updates
of the ca   information data base. Finally, early in 1988 they added another system
application that tracks age , actions and status of paternity cases. Previously,
caseworkers kept personal ticklers and color codes to track needed actions , with the
result that cases often exceeded time limits or were left unattended. The automated
system, however, greatly improved processing times and individual case management.

Paternity establishments for San Francisco increased from 482 in fiscal year (FY)
1986 to 84 in FY 1987, and to 2576 in FY 1988. Other cumulative effects were:
1) the elimination of a clerical tying backlog of 4 to 6 months , 2) the elimination of
a case action backlog of 2 months , and 3) the elimination of 28 clerical positions
(salary range $23 00 to $25 (0) oyer 3 fiscal years.

Santa Barbara: Manual case management systems work effectively with the
proper controls in place

Santa Barbara and Memphis have primarily manual systems. The other sites are a
combination , with the system frequently limited in its cae tracking and aging
capacity. Nevertheless , site staffs properly manage their cases by using manual
tracking and " tickler" procedures. Most would prefer, however, to have fully
automated systems.
Santa Barbara establihed 173 paternities in 1985 , 1185 in 1986,       and slightly more
than 60 in each of the next 2 years. They also won an "Outstanding Program
Award" for 1986 from the National Child Support Enforcement Association. Part of
their work that year was the completion of their " Default Project" which culminated
2 years of cae management improvements.

Faced with an extremely disorganied system in 1985, the Santa Barbara staff
manually inventoried the entire caeload to determe        the status of individual cases
and actions needed to complete them. By 1986 they had identified the cases in
which the putative fathers had been legall     served with a   summons and complaint
but no other action had been taken. After notifyng the court and the public of their
plans and soliciting cooperation, the staff processed their backlog of 450 default
cases, about 5 years worth, in 10 working days. Paternity was legally established for
each case ,   and the father was obligate   to pay to child support.


The barers to the case management changes were no overtime money and staff
who resisted the change. Santa Barbara overcame these by completing the work
within regular working hours. Staff goals were stated clearly, and caseworkers were
expected to comply. Some staff left, but the remaining staff were involved and their
improvement suggestions utilized.

For the current caseload , Santa Barbara instituted case trackig and quality controls:
6O- day case reviews for actions taken and actions needed , individual cae control
sheets , daily caseworker log sheets summarized by supervsors, supervsory review of
all caseworker initiated legal actions , and wrtten standards describing caseworker
responsibilties. Every 6 months supervsors review 10 percent of each caseworker
caseload to ensure compliance with the 60-day review procedures and to         identify
additional training needs.

Improved intake. status tracking. processing time standards. and other methods for
improving case management

Little Rock improved its case management at intake by scheduling specific times for
clients' appointments. Intake procedures were wrtten; caseworkers with good
interpersonal and wrting skills were trained in them. The site also set a 60- day time
limit after intae for some tye of case resolution, e.g. , adjudication started , case
hold for future loction attempts. Afer 180 days , they attempt another locate or
possibly make a cae closure referral to the supervsor. Since they made these
changes , case processing time has improved noticeably.

In Philadelphia, approximately 2500 cases per month are referred from AFC intake
to the Chd Support agency prior to eligibilty determination. Site personnel stated
based on experience , that many clients , who are denied public assistance , do not wish
to pursue child support. A pilot project at two AFC district offces specially
trained AFC caeworkers to complete the entire intake intervew (screening,
verication, loction). Oients who are not authoried to receive AFDC and who do
not wish to pursue child support once public aid is denied, about 3Q percent, are not
referred to the CSE offce. Oients who are referred have already been intervewed
for the needed CSE information. As a result , case processing becomes faster and
concentrates on paternity establishment tasks.

Small changes can also improve cae management:

              Salt Lae   manually sort caes         received from AFC.    Cases needing
              paternty establishment are color       coded to indicate their status. They
              also standardized their forms for uniformity, and used simpler language
              and formats for a more "client friendly" document.

              Santa Barbara physically divides each case into color coded information
              sections. The caseworker " saves 20 to 40 minutes every time the case
              is handled" because (s)he can quickly find or enter the      information.
              Alo at intake , clients sign a non-welfare CSE application for servces
              which permits the Child Support staff to immediately pursue paternity
              establishment even if AFDC assistance is denied.

              Since 1987 San Francisco has had a supervsor        trained to legally fie
              summons/complaints , default judgments and stipulations with the court.
              This eliminates backlogs and expedites the process of filing legal
              documents generated by the site s        computer system.



MORE    EFFCT STAF UTTiON
An effective paternity establishment process requires sufficient staff organized in an
effcient way to properly complete all casework tasks.



                               tIJ                 Ws,1111fflCIBJ
Hiring additional staff for   existing case load




Hirng additional staf just to handle the existing case load was a     basic,   but key,
improvement at six sites. Even though they were backlogged or experiencing other
serious difculties , each of the six site directors had to convince management of the
need for additional sta.
Techniques they used were demonstrating their effcient use of staff currently on
board , trackig the correlation of staff overte to improved performance, setting
goals for worker-to-case ratios, projecting future cost effciencies and emphasizing
compliance with Federal requirements. Five of     these six site directors also perceive
that their top managements' commitment is a factor of     their effectiveness.


Little Rock began its improvement plan in 1987 by setting caseload goals , adding
staff and tracking the results. Accrding to FSA data Arkansas established
paternities increased from 2941 in 1985 to 5903 in 1988. Little Rock is the major
population center for the State , and the site director believes the staff increases were
a major reason for their improved performance.

Staff specializtion

     tever their specifc division of labor, the nine site directors using specializtion
told us its benefits are faster and smoother case processing, more consistent and
accurate case decisions , backlog reductions , and greater client and caseworker
satisfaction.

Specializtion schemes are: welfare/non-welfare cases , teams , or functional divisions
Le. , intake, location. Combinations of the schemes are common. For example , a
caseworker may only do intake intervews with AFC clients. Two sites have
specially trained caeworkers to act as paralegals. One of their attorneys said 80
percent of case adjudication problems ca be anticipated; therefore, caseworkers can
be trained in advance to deal with them. He believes the site staff produces "high
quality cases that meet legal standards. " Another site director upgraded one position
tye so   that he could hire better qualified employees.

One-of-a- kind positions. contracts. and use of clericals for routine case tasks

Some sites create unique positions to faciltate paternity establishment: a paternity
coordinator to act as liaison between court   and attorneys ,
                                                            a blood test consultant to
schedule appointments and negotiate payments , an ombudsman to handle difficult
clients or sensitive cases. Prince George s County uses a court liaison officer to
arrange transporttion for clients with volunteer drivers so they will not miss court
hearings.

Blood testing is the most common contracted servce. However, 10 sites contract for
additional paternity establishment servces: legal process servers (private or sheriffs
departments), legal counsel (private or public), and credit bureaus for location
information. One site respondent noted that , as they gained experience , they had
changed contractors for legal counsel in order to attain better servce.
Five sites trai                 routine casework tasks such as document searches,
                          clerica to do
status verications and cae completeness reviews. By using clericals for routine
tasks the sites gain professional staff time for more complex tasks.

Dakota County: A convincing example of the positive effects of staffng        changes


In 1986 and 1987 Dakota County established 18 and 19 paternities respectively. In
1988 they established 226, and they project 324 establihments for 1989. They
attnbute their succss to                   hig
                                additional staff and realigng personnel duties.

In July 1987 two paralegals and one attorney were added to the County Attorney
existing child support enforcement staff of just two attorneys. The paralegals
assumed many paternity establishment duties formerly done by Child Support staff
and attorneys , such as intervewing the mother and father, and preparig routine
legal documents. The attorneys, as a result, had more time to work complicated
caes.
In January 1988 the County added the second piece of its improvement plan -- the
expedited administrative process. Placed in the CSE offce , child support officers
present cases before administrative law judges to    establish binding support orders for
certin cae tyes, tyically default judgments and summary judgments, and to
conduct case reviews for support amount changes. Prior to this , the County Attorney
did all paternity and support order work; the attorneys had to attend the child
support hearings.

 The combined effect of these changes was to add specialized staff, reassign some
 duties , train staff for new duties , and eliminate process duplication where possible.
 Now Child Support staff does intake , 10catioQ. routine child support orders and
. collections. The County Attorney handles all paternity work and more legally
 complicated chid support cases. As a result , numbers of court orders produced
 collections, paternities fiished and time frames have all improved.


TOP      MAAGEM COMM
                                      top management commitment as a critical factor
Many effective practice sites identify 


supporting their effort to initiate needed system and procedural changes and
improve performance in paternity establishment. One site respondent said Child
Support is now a management priority. We are budgeted separately. We can t have
our money touched by other agencies when times are tough.
.............,.....
.......
..     .....
 . . ...
...          ''''''                ."............
               ..........."........,..,..,-,...
                    ...........
               ...........................
                     ''''''''''''''""  . .,-",,'..
         ..................................
     '......                          ........      ...
                                                      ......
                                                    .......
                                               ... ....
                                                   ''''       ...
                                                        ........... '''''''''''''''''''''''''''''''''''''''''''''",,
                                                                     """"""""""""""""-""-'-""""'
                                                               ""
..................",..,.'"..."..........
                                                                                           ..........,.........,,'........
                                                                           ................................................
                                                                      ...,...........
                                                                 '''''''''''''     ''''''''''''''''''''''''''''''''     ''''''....    ..  ,".,,-.
                                                                                                                             ''''..............
                                                                                                                        .".,,'..    .........
                                                                                                                                   ...      ... ....."...
                                                                                                                                      ...........          . ................................
                                                                                                                                                      .......
                                                                                                                                                           ......
                                                                                                                                                          ......       ........................................
                                                                                                                                                          ......................................
                                                                                                                                                              '''' .............................................
                                                                                                                                                                             ... ............................
                                                                                                                                                                       '''''''''''''''''''''''''''''''''''''                ...
                                                                                                                                                                                                                              ,,'...."..
                                                                                                                                                                                                                                  ....  ..............
                                                                                                                                                                                                                                              ..........  ..",..
                                                                                                                                                                                                                               ,.................................
                                                                                                                                                                                                             ... ... . ."'........    . .... ............          "'
....
                                                                                                                                                                                                                                                            "".. ....
                                                                                                                                                                                                                                               ..... ................
                                                                                                                                                                                                                                            ........................
                                                                                                                                                                                                                                                         ............ .......
                                                                                                                                                                                                                                                                      ,      ......
                                                                                                                                                                                                                                                                        . ."....
                                                                                                                                                                                                                                                                            ........
                                                                                                                                                                                                                                                                            ...       .........
                                                                                                                                                                                                                                                                                 .......
                                                                                                                                                                                                                                                                                ......... ............
                                                                                                                                                                                                                                                                                       ...... .......
                                                                                                                                                                                                                                                                                     ..........  .........
                                                                                                                                                                                                                                                                                      ............




                             MANAGERIAL COMMITMENT GREATLY AFFECTS

                              THE PATERNITY ESTABLISHMENT PROCESS

                                                                                               GREATER MANAGER                                                               I AL
                                                                                                                    COMM I TMENT

                                                                                                                                                                                                                        ADDITIONAL STAFF

                                                                                                                                                                                                                        AND RESOURCES

                                                                                                                                                                                                                         S T A F F S P E C I A LIZ A T I ON

                                                                                                                                                                                                                         IMPROVED AFDC/CSE
                                                                                                                                                                                                                         RELATIONS
                                                                                                                                                                                                                         TRA I N I NG
         PUBL I C EDUCA T ION
         SUPPORT FROM

        COMMUN I TY

         LEGISLATIVE AND

         JUDICIAL INTEREST

                                                                                                                                                                                                                        BETTER COOPERAT ION BY

                                                                                                                                                                                                                        MOTHER AND FATHER

                                                                                                                                                                                                                         I MPROVED CASE
                                                                                                                                                                                                                        MANAGEMENT
                                                                                                                                                                                                                        MORE EXPER I ENCED AND
                                                                                                                                                                                                                        QUALIFIED STAFF

                                                                                                                                                                                                                        BETTER CASE INFORMATION



                                                                                                             I MPROVED CASE
                                                                                                              ADJUD I CAT ION



                                                      PERCEPTONS OF PA1ERN ESABLISHMNT


IMORTANCE OF                                                               PATE ESTABUSHMNT

                                     _I_.fI"111                                                                                                                                                     III\I.BI:I                              j_lil                                                    J!'




When asked, " Should paternity establishment be a high priority?" managers and
supervsors at all but one site , where opinion was split, said Yes , it should.

Some answers related to cost reduction issues:

                           Paternty cases are good collection                                                                                             cases.
                           Paternity establishment is the fist                                                                                           step towards a support order and
                                                 controllng AFDC costs.
The majority expressed genuine 
           concern for the children

             Children deserve to be supported.

             A chid is entitled to know who his father is.
             Paternty establishment       is necessary to future benefits for the child.
             Non-marital chidren should not be discriminated against.

The site staff we intervewed are strongly committed to their work, emotionally
involved , and believe the work is importnt.

             Paternty establishment       is a worthy process that will pay for itself.
             We need to give workers credit for establishing paternities and put more
                   emphasis on this than just on establishing support.
             All caes deserve to be developed and to have paternity established. Cost
                       effectiveness is not the   appropriate measure for paternity
                       establishment. "


COST        EF                       OF   PATE ESABUSHMNT

In February 1985 the Center for Health and Social Servces Research (funded by a
grant from the Offce of Child Support               Enforcement) published   Costs and Benefits
of Paternity Establishment. They selected study sites that could be expected to be
successful in processing paternity cases and where such cases comprised a meaningful
portion of their overall caseload.



Although their findings " should not be seen as representative of paternity cases
nationwide " they do indicate that in the jurisdictions studied " it is possible for
collections on paternty cases with obligations established to exceed costs for all
paternity cases , regardless of income , over time.


They also found: 1) a key to increased cost   effectiveness is successful paternity
establishment, 2) improving location and confrontation increases paternity
establishment success , and 3) paternity cases may pay as well as other cases.


According to recent analysis by the Congressional Budget Offce (CBO), States can
expect to spend $40 milion each year for fiscal years 1991 through 1993 to meet the
paternity establishment goals required by the 1988 amendments. Since the CBO
believes child support collections will lag behind paternity establishment, it estimates
no savings for 1991 , and net costs of $25 milion and $15 millon for the following 2
years. No projections are available for years beyond 1993.
                                                                                 ~~~




1_\I1. 'III
Seven directors believe ,        for their sites ,
                                      paternity establishment is cost effective
                                                                                       '.i!j;

overall. Four emphasized they are  cost effective right now with three having
aggessively improved their procsses for at least 3 years.   Three stressed future
payoff, and one said they could be more cost effective if they " could pick and
choose"      their cases ,   which they currently don t   do.


Five   believe they     aren t yet cost effective overall     two
                                                             , but         predict they will
                                                                       of them

  . One respondent          said they aren t cost effective because they don t " prioritize
their cases.



Chicago described a frstration           in achieving cost    effectiveness. II Although we establish
paternity, we don t always get cash support orders. Judges will not establish them if
the father is unemployed. 1I Their solutions are to review these cases regularly against
State wage and employment data or to try proving perjury against the father
concerning his employment status. In addition , a newly enacted State law requires a
minimum $10 monthly support order for all cases.

Eleven site directors think increases in paternity establishmem have contributed to
reductions in AFDC payments and to more closures of AFC cases , at least
 somewhatll (five directors) or " minimally" (four directors). Seven told us that
implementing improved paternity establishment practices resulted in increased
administrative costs. Four thought administrative costs stayed about the same.

Seven , reporting administrative cost increases , attributed them to start up costs ,          e.

automated systems or additional personnel for improving their case
processing/management, or increased legal costs. Five of those experiencing
                                  mostly or more than offset by increased
increased costs believe these wil be
collections.

Finally, 12 sites have experienced increases in child support collections. Nine of 12
believe that increased paternity establishment only II somewhatll influenced the
increases in collections. Eleven site directors think, however , that collections will
increase in the future , influenced more strongly by the effect of increased paternity
establishment.
                      EFFCf PRACfCE SUMY
Based on the study sites ' descriptions of major barrers to an effective program and
the key improvements they have made , we identified seven effective practices that
improve paternity establishment in the Child Support Enforcement program. States
should consider adopting these practices. 




SOliCI SUPPORT FOR TH            PATE ESABLISHM                      PROGRA
Sites improved performance when they actively solicited the support and commtment
of top management, the judiciary, legislators and the community for the paternity
establishment progr.
Commitment by top management and support from judges and lawmakers           were key
factors of succssfu paternity establishment at many of the effective practice sites.
Though such support, the sites were able change paternty laws , streamline
adjudication, increase program resources , and increase numbers of paternties
established. Support from the immediate community also assisted in locating more
putative fathers.


CL REPONSmn.                    FOR OBTAIG           INAK INORMTION
Deciding whether AFC, Chld Support or other staff should be responsible for
obtaining the necessary intake information about the putative father would improve
intake and the site s abilty to pursue paternity establishment. Then management
should provide the needed resources and hold the staff accountable.

Information about the putative father is critical to paternity establishment. AFDC is
often expected to collect the information, but they are generally perceived by the
Child Support respondents as ineffective. While they usually have fist contact with
the mothers, AFDC may not, in fact, be the best choice in . view of their priary
focus and program concerns. Options for improvement are co-locating AFC and
Child Support staffs, same day intake intervews by both staffs, delegation of the
primary responsibilty to CSE staff, or better training of AFC in what information
Child Support . needs or in more effective intervew techniques.


PROMOT IMROVE PARAL (xPERATION
Developing better information or techniques for convincing the parents to cooperate
with Child Support improves the paternity establishment process.

The mothers and fathers are perceived    as major barrers to paternity establishment.
Convincing them of the benefits to the child , giving them better information about
their ' responsibilties and the establishment process , and more skilful intervewing by
the caseworkers are proven strategies for overcoming the problem.


ST              ADJUICATION OF          PATE ESABUSHM
The effective practice sites simplify adjudicative procedures whenever possible under
State law and try to minimize time spent in court.

The effective practice sites achieve this by encouraging voluntary admissions of
paternity, takig default judgments , providing easy accss to blood testing, and
effcient scheduling of cases for hearings.

The Congress has promoted these procedures through amendments to the Social
Security Act. Concernng paternity establishment, the 1984 amendments urged States
to establish expdited processes withi the State judicial system or under
administrative procsses. The 1988 amendments encourage implementation of a
simple civil process for voluntay acknowledgig paternty, and a civi procedure for
determning paternty in contested caes. Beginng on October 1 , 1988, the 1988
amendments also provide 90 percent Federal matchig        payments for the cost of
blood and other laboratory tests to establish paternty.


INST          EF            CAE MAAGEM CONlOLS
Effective case control systems allow sites to identify, age and monitor the status of
the paternity establishment caseload.



Whether automated or manual ,   systematic case management is crucial to processing
all cases in a timely and accurate manner. It also assures that cases are not lost or
left unattended.


SIMLI CASE PROCING
Evaluation of case processing helps sites to simplify it, increase effciency and reduce
duplication of effort.

The effective practice sites were able to improve their case processing with simplified
procedures. Computer-generated documents , simpler forms , color-coding of case
tyes or information sections , elimination of duplicative or over- lapping staff duties
and at intake , screening out clients who cannot use child support enforcement
servces are examples of effciency improvements at these sites.


UPGRAE AN IMROVE STAF UTTION
Re-evaluatig the number, duties , capabilties and division of labor of present staff
can improve the paternity establishment process.

A key improvement at six effective practice sites was hiring enough staff to do the
job. Nine sites specialize staffs because it improves program knowledge and case
processing. Ten contract for paternity establishment servces such as legal servce
legal counselor locate information.
                                                                          APPENDIX A


                              STY MEODOLOY
 Scope

 The inspection focused on effective practices for paternity establishment up to , but
  not including, the issuance of the chid support order. The reasons for this were:
  the standards for paternty establishment under the Family Support Act of 1988 do
. not include requirements for support orders , and 2) our research indicated that
  paternity establishment and obtaining a support order can be two , independent
 processes.

The inspection sample is judgmental and consists of 77 respondents at 13 sites in 12
States. In addition , since the inspection sites were perceived to be effective by those
knowledgeable in child support enforcement, we did not validate cause/effect
relationships between the effective practices and the paternity establishment
achievements of the jurisdictions. Rather we accepted what respondents reported
concerning the impact of their effective practices.

Finally, we did not attempt to calculate a cost/benefit ratio of paternity establishment
for our sample sites , but we did question the site directors about their perceptions of
their cost effectiveness. We also asked them about their motivations and attitudes
regarding child support enforcement.


Site Selection:



These sites were selected using a careful screening process based on literature
review, analysis of national statistics for out-of-wedlock births and numbers
paternities established, and on recommendations from various national special
interest groups , Federal , Congressional and regional OCSE staffs , State and local
Child Support directors , attorneys and researchers.

From the screening, we also derived a set of characteristics for an ideal paternity
establishment process. (See exhibit " An Ideal Paternity Establishment Process " on
page 5.

The final sites selected were those jurisdictions that rated above average by the
 ideal" model , the data or the expert' recommendations , and that have sizeable
target populations. The sites provide a mix of county and State supervsed programs
and also include a variety of paternity adjudication systems.
Data Collection/Anal

Data for 12 jurisdictions was collected on-site through intervews with the local
director, legal personnel , case supervsors and other knowledgeable staff. Intervews
for one jurisdiction were conducted by telephone. The intervew topics were
site/staff description, intake , location , confrontation, adjudication , case management
perceptions of effective practices and cost effectiveness, and trend data.

We analyzed the data for trends among the sampled sites. We defined "effective
practices" as procedures which improve the number of paternities established, case
decision accuracy, or case management effciency. We also used the characteristics
of an ideal paternty establishment process as a reference for developing the
descriptions of effective practices.

Study Sites/Numper of Respond

       Pulaski County (Little Rock), Arkansas (8)
       San Francisco, California (5)
       Santa Barbara County (Santa Barbara), California (4)
       New Castle County (Wilmington), Delaware (10)
       Fulton County (Atlanta), Georgia (6)
       Cook County (Chicago), Ilinois (4)
       Marion County (Indianapolis), Indiana (5)
       Prince George s County, Maryland (3)
       Wayne County (Defroit), Michigan (5)
10.    Dakota County, Minnesota (4)
11.    Philadelphia , Pennsylvania (8)
12.    Shelby County (Memphis), Tennessee (8)
13.    Salt Lake County (Salt Lake City), Utah (7)
                                                                      APPENDIX B



                   INIVUAL SIT PROFI

                PATE FSABUSHM PROCUR

Study Sites

      Pulaski County (Little Rock), Arkansas
      San Francisco, California
      Santa Barbara County (Santa Barbara), California
       New Catle County (Wilmington), Delaware
       Fulton County (Atlanta), Georgia
       Cook County (Chcago), llinois
       Marion County (Indianapolis), Indiana
       Prince George s County, Maryland
       Wayne County (Detroit), Michigan
10.    Dakota County, Minnesota
11.    Philadelphia , Pennsylvania
12.    Shelby County (Memphis), Tennessee
13.    Salt Lake County (Salt Lake City), Utah


Summary of Site Demographics

Four of the sites are counties of less than 500, 00; 3 are more than 1.5 milion.
Nine of the sites are State administered; four, county administered. The estimated
percentage of Child Support staff time spent on paternity establishment ranges from
17 percent to 75 percent with 2 staff below 20 percent and 4 above 50 percent.
The Child Support case load for 12 sites is primariy AFC, varyng from 55 percent
to 90 percent. One site has only a 30 percent AFC caseload.

The population served by the Child Support Enforcement program is predominantly
black for seven sites, predominantly white for two sites, equally divided black/hite
for three sites, and white/hispanic for one site. The ages of the custodial parents
(usually female) range from 16 to 40, with the most common span being late teens
to early 30'

Notes for Profile Data

      County out-of-wedlock births are estimated from 1986 data collected by the
      National Center for Health Statistics, DHHS. Their data are reported either
      by city or by standard metropolitan statistical area.

      County population is from July 1 , 1988 Bureau of Census data.

      The CSE case load description information was reported by the study sites for
      their entire caseload, not just those requiring paternity establishment.

      The Offce of Child Support Enforcement told us a CSE case is defined by
      the absent parent, often the father. A CSE case load is , therefore , a count of
      absent parents and reflects both AFC and non- AFC cases. The AFDC
      and non- AFC case load percentages used here are estimates by the site CSE
      directors.
               PUL COUN                (L ROC ARSAS

                                  DEMOGRAmCS

1986 State Out of Wedlock Births :   8, 246


1986 County Out of Wedlock Births : 1, 783
   ( es imated)


1988 County Population     356

CSE Caseload Description
      The cae load is 60% to 70% AFDC; the other 30% to 40% have earned
      incomes of $10 00 - $15 00 a year. The custodial parents ' age range is 22 to
      35. Racial composition     is 80% black, 15% white ' and 5% other.


                    PATERN ESABLISHM PROC
Method of Intake
     AFDC and CSE are not co- located. AFC gathers some information on the
     putative father; CSE routinely does a follow-up intervew. AFC was
     reported as not consistently obtaining basic paternity information , e. , names
     of all potential fathers, address , employment, Social Security number. Key
     improvements were scheduling specific times for appointments, putting intake
     procedures in wrting for the staff and then training them , and setting time
     limits for some tye of case resolution.

Penalty for Non- Cooperation
       Removal of the mother from the grant.

Blood Tests
      Blood is drawn at a local laboratory although the site is tryng to move the
       procedure to its locl offce. The site recently began to require the putative
       father to pay for the blood tests within 30 days, not 60 as before. Failure to
       pay could result in contempt of court. If the putative father agrees to pay
       and to abide by the results should they indicate 95% probabilty of paternity
       (Agreed Order), CSEmay agree to pay for the tests up front. Before, the
       test was paid for by whomever requested it.

Method of Adjudication
       In some cases the putative father will come to the Child Support offce to
       admit paternity, at which time the child support investigators will explain his
       legal rights. The CSE attorney prepares the documents, and the
       acknowledgement is entered into the court    records.


       At the time of the on-site visit, cases were heard in a   county court before a
       judge who specialized in paternity establishment. Shortly afterwards, State
      Chancery Court    were given jurisdiction over paternity cases. There are no
      longer preliinary hearings and other procedures       were streamlined.

      In contested caes, a complaint is fied and served to the putative father.
      must file an answer within 20 days or a default judgment is entered.
      evidence regarding income is available, support may be set at that time.

      If the putative father responds by denying paternity, he signs an Agreed Order
      for blood test payment. The Agreed Order also stipulates that positive results
      with a probabilty greater than   95% may be entered as evidence       without
      further proof and that . the results shall be dispositive of the issue of paternity.
      Upon payment, the blood tests are scheduled. If the results are positive , an
      attempt is made to enter into an agreement with the father. Failing that, a
      court date is set.

                           PROGRA ADMISTTION
CSE Administration: State

Case Management
      Case management is a combined manual/automated system. Information
      transferred by computer from AFC to CSE is printed out at State Offce
      and the documents are sent to CSE. Some documents are computer
      generated, but notices to mothers and case tracking are done manually.

Staffng
       Caseworkers are assigned to AFDC or non-AFC cases. The work is then
       assigned by function: location , collection , enforcement, intake and
       adjudication. Adding staff in 1987 and tracking the results was reported as a
       key improvement.

      Clerical workers do case related data search on payment histories at the
      courthouse , obtain docket numbers and orders, prepare case openings for
      investigators, close caes and verify case contents are complete.

Contract for Servces:
      Roche Biomedica Labs for blood analysis


                     CONTACf FOR MORE INORMTION

       Ms. Judy Jordan ,
                       Manager
       Child Support Enforcement Unit
       105 Main Street
       Little Rock, AR 72201

       Telephone: (501)    377-6130
                                             , "




                           SAN FRCISC, CALIFORN

                                    DEMOGRAIDCS

1986 State Out of Wedlock Births :    127 683

1986 City Out of Wedlock Births :    2 707
   (estimated)

1988 City Population :   731, 600


CSE Caseload Description
       The caseload is 80% AFC. The custodial parents' age range is 17 to 35.
       Racial composition is 51.6% black 21. 2% Asian, 13. 3% white , 11. 5% hispanic
       2% Philppino, and 0.4% American Indian.


                      PATERN ESTABLISHMNT PROCE
Method of Intake
     AFDC and CSE are not co- located. AFDC collects no information on the
      putative father; CSE has the primary responsibility for the paternity data
      which they collect on the same day as the AFDC intake interview.

Penalty for Non- Cooperation
       Mothers must talk to CSE before their AFC application is approved. Non­
      cooperation at CSE intake or later means removal of the mother from the
      grant. Use of the penalty at intake is now " rare" due to complaints from a
      welfare advocacy group about the penalty s use. The site implemented a
      procedure which offers mothers an opportunity to sign a " Declaration " about
      the putative father under penalty of perjury. This procedure is now required
      State-wide.

Blood Tests
       Blood is drawn at the Child Support offce.     CSE pays for the tests initially
       and later collects from the putative father on any judgment for repayment of
       those costs.

Method of Adjudication:
     If a man wishing to admit paternity comes to the CSE office , staff can
     computer- generate a summons/complaint, file it and serve him right there.
     They also explain his rights and responsibilities with . his signed verification the
     information was given to him.

       The man is given the choice to wait 30 days or formally admit paternity then.
       If he agrees to do it then , he signs and receives a stipulated judgment which is
       generated from the automated system. The attorney signs it , the document is
       fied , and a judge signs to finalize the paternity establishment.
      If a man is served with a summons/complaint and formally denies paternity,
      then blood tests are ordered and a hearing date is set. If the tests do not
      exclude him , he can either admit paternity or proceed to trial. If the man
      does not answer the complaint, a default judgment of paternity is rendered.

      CSE is able to fie legal documents (summons/complaint , default judgments
      stipulations) quickly because an on-site CSE supervsor has been trained as a
      deputy county clerk.


                          PROGRA ADMISTRTION
CSE Administration : County

Case Management:
      The site has an automated cae management system that can identify, track
      age and obtain information for paternity cases as they are processed.
      Document generation is completely automated. Changing from a manual
      system to an automated one over several years was a key improvement.
      Conversion of paper files to an automated . data base was scheduled for
      completion by summer 1989.

Staffng
      Caseworkers are now generalists and handle all phases of the process. The
      Director believed speciplization caused downtime. As a case moved through
      the process it "would go to the bottom of the stack" in the next phase or
      would go nowhere if the responsible staff member was out of the offce.

Contract for Servces
      ABC Legal Services to serve summons/complaints.
      Genetic Design for blood analysis.


                    CONTACf FOR MORE INORMATION

      Ms. Edwina Young, Director
      Family Support Bureau
      District Attorney s Offce
      291 Tenth Street
      San Francisco ,   CA 94103
      Telephone: (415)    553- 4286
       SANA BARAR COUN (SANA BARAR), CALIFORN

                                      DEMOGRAIDCS

1986 State Out of Wedlock Births :      127 683

1986 County Out of Wedlock Births :      1   007
   (estimated)

1988 County Population       343, 100

CSE Caseload Description
       The caseload is approximately 60% AFDC. The custodial parents ' age range
       is late teens to early 20' s. Racial composition is about evenly divided between
       white and hispanic.

                     PATERN ESTABLISHMNT PROC
Method of Intake
       AFC and CSE are not co-located. At all 3 intake sites CSE now
       coordinates with AFC staff to conduct intake intervews on the same day.
       CSE has the primary responsibilty for collecting information on the putative
       father. Prior to mid- 1989 ,
                                 the site had 1 offce which did a follow-up intake
       intervew weeks after , AFC's. CSE- staff believed AFC did not consistently
       obtain the information needed and that CSE obtained better information
       about the putative father from the same day intervew.

       For informing clients about available servces , the County uses an audio-visual
       presentation of which the benefits of paternty establishment is a segment.


Penalty for Non- Cooperation
       Mothers must talk to CSE before their AFDC application is approved. Non­
       cooperation at CSE intake or later means removal of the mother from the
       grant. A required State-wide procedure offers mothers an opportunity to sign
       a " Declaration" about the putative father under penalty of perjury.

Blood Tests
      Blood is drawn at a local pathology laboratory. The CSE program initially
      pays for the tests , and later seeks a judgment for reimbursement against the
      putative father -- for all 3 tests if he is proven the father, for just his own if
       he is not.

Method of Adjudication
       The mother, as noted , completes a " Declaration" naming the putative father.
       This declaration support a default judgment and/or CSE' s      pursuit of paternity
       establishment without the mother s presence if she leaves the area. The
       putative father , once located , is served with a summons and complaint. If he
       does not respond to it, a default judgment is sought    based on evidence and
       allegations made in the complaint.
      If the putative father voluntarily   admits paternity, he signs   a stipulation of

      paternity. Although a court appearance is not needed to obtain an order, the
      father is routinely scheduled to appear in court at which time the judge
      reviews his rights with him. This appearance simplifies enforcement
      subsequent to entry of the order.

      If the putative father responds to the summons and complaint, but denies
      paternity, blood tests are ordered. If he stil denies paternity after the blood
      tests do not exclude him, there is a trial before a judge and/or jury.

                          PROGRA ADMISTTION
CSE Administration : County

Case Management
      Case tracking and quality controls are manual: 6Oday case reviews for actions
      taken and actions needed , individual case control sheets , daily caseworker log
      sheets summaried by supervsors , supervsory review of all caseworker
      initiated legal actions, and wrtten standards describing caseworker
      responsibilties. Every 6 months supervsors review 10 percent of each
      caseworker s case load to ensure compliance with the 6Oday review procedures
       and to identify additional training needs. Each day Family Support Officers
       must identify 10 cases that have had no action/review in the last 60 days and
       take the necessary action to update the case.


       In 1986 the site conducted a " default   project   . The   prior year they had
       inventoried the entire caseload to determine the status of individual cases and
       actions. needed to complete them. As a result, they identified cases in which
       the putative father had been served , but no other action was taken. After
       notifyng the court and the public of their intention, the CSE staff processed a
       backlog of 450 default caes in 10 working days.


Staffing
       Staff is assigned to either the welfare or non-welfare team. Within the teams
       casewor,kers specialize in enforcement, intake/locate, or establishment.
       Establishment offcers have been trained by the legal staff to handle routine
       defaults and voluntary stipulations. There is also an ombudsman to handle
       diffcult clients or sensitive cases. Oerical workers schedule blood testing,
       view the blood draw and process legal documents.

Contract for Servces: None.

                      CONTACf FOR MORE INORMTION

       Ms. Maureen Fann, Division Chief
       Santa Barbara Family Support Division
       1114 State Street, Room 308
       Santa Barbara, CA 93101
       Telephone: (805) 5682328
            NEW   CA           COUN            (WGTON),
                                                            DEIWAR

                                      DEMOGRAIDCS

1986 State OUt of Wedlock Births :      2, 621


1986 County Out of Wedlock Births :        not available


1988 County Population :    435, 300


CSE Caseload Description
     The cae load is 90%      AF; the 10% non-AFC has a weekly income of
      approxiately $180. The custodial parents ' average age ranges from    17 to 24.

      Racial composition is 50% black and 50% white.


                   PATERN              ESABLISHMNT         PROC
Method of Intake:
     CSE intake workers are located in the AFDC offce. AFDC collects some
     information on the putative father. CSE does a follow-up intervew that same
     day which is their preference.

      To improve intake and to change their perceptions, AFDC workers were
      trained on how to view clients differently: to see AFC as something
      temporary, the client as competent, and paternity establishment as helping the
      client.

Penalty for Non- Cooperation:
       At intake, AFC assistance is not approved until the mother completes an
       intervew with CSE. Later non-cooperation means removal of the mother
       from the grant.

Blood Tests
      Blood is drawn at the Family Court. CSE pays for the test initially, but, if the
       man is proven the father, then he must pay.

Method of Adjudication
       The putative father is served with a summons and complaint. If he does not
       respond after two servces , and possibly a bench warrant for his arrest, a
       default judgment of paternity is entered.

       At this site , voluntary paternity acknowledgements must occur in Family
       Court. If the man wishes to admit paternity, a court Mediator explains his
       rights to him and negotiates a support amount, thus completing the case. If
       he agrees to paternty but not to a support amount, a court Master conducts a

       final negotiation. No court appearance before a judge is necessary in either
       case.
      Putative fathers who deny paternity have a hearing with a Mediator who
      schedules blood tests. A default judgment is possible if he fails to appear for
      the test. If the bloo test has not excluded him, the putative father is given
         opportnity to voluntari admit paternity. If he doesn t, the Master will
      hear witnesses and make a decision on paternity and support amount. The
      man may request a trial before a judge if he will not accept the Master
      decision. Delaware does not allow jury trials in paternity cases.


                           PROGRA ADMISTTION
CSE Administration: State

Case Management
      CSE uses an automated system which identifies caes which need paternity
      establishment, alertstaff when specific case action is required or overdue
      counts the number of paternity establishment cases they have. at any specific
      time and generates needed documents.

Staffng
      CSE workers are specialized by welfare or non-welfare which improves their
      expertise. CSE has a specialized locate unit that is responsible for tracking
      absent parents if the intake unit cannot obtain the needed information. They
      also have separate units for intake and enforcement.

      They hired 4 additional attorneys in 1986 which increased their case
      processing and smoothed out the adjudications.

Contract for Servces
      Process servers to serve legal notice.

      Family Court to provide the servces of Mediators and Masters (hearing
      offcers ).

      State Justice Department to intervew and select attorneys for CSE legal
      caseworL Pay for the attorneys is part of the CSE budget. The Justice
       Department retains firing authority.


                        CONTACf FOR MORE INORMTION

          Ms. Barbara Paulin , OCSE Director
          Offce of Child Support Enforcement
          1901 DuPont Highway
          Post Offce Box 904
          New Catle,   Delaware 19720

          Telephone: (302)   421- 8356
                   FUTON COUN              (ATLA), GEORGIA

                                  DEMOGRAmCS
1986 State Out of Wedlock Births :   26 701

1986 County Out of Wedlock Births :    9 877
    ( estimated)

1988 County Population :   640 800

CSE Caseload Description
      The caseload is 80% AFC and is predominantly black. The custodial
      parents range in age from 18 to 25.

                    PATERN FSABLISHMNT PROC
Method of Intake
      AFC and CSE are not co-located. AFDC gathers some information about
      the putative father with CSE routinely doing a follow-up intervew, either in
      the office or by telephone. CSE has also obtained information from
      questionnaires sent by mail.

Penalty for Non- Cooperation
      Removal of the mother from the AFDC grant and designation of a new grant
      payee. CSE will close non-AFDC cases after 30 days.

Blood Tests
      Blood is drawn at the Child Support office by appointment. Payment is often
      split by CSE and the putative father. CSE may pay all the cost if the man is
      excluded. CSE' s payment depends on the availability of matching funds.

Method of Adjudication
     First, a form letter, advising the man of the paternity allegation and his rights
     is sent. He may voluntarily admit paternity at this time , or he may first
     request blood tests , and then voluntarily acknowledge paternity after the
      results are known.

      The father can sign a paternity statement to acknowledge paternity only. This
      statement is notarized by an agent and requires a subsequent court
      appearance to set child support. The man may execute a " consent order
      (signed by a superior court judge) or an " administrative   consent order " (signed
      by a fair hearings officer) to both acknowledge paternity and set child support.
      Neither requires a court appearance by the father; the methods for enforcing
      the support order, however, are different. The majority of paternities are
      established by voluntary procedures which were implemented in recent years.

       If the putative father does not respond to the form letter , the sheriff legally
       serves him in person. At this point also , he . may voluntarily acknowledge
       paternity. Only the attorneys attend the preliminary hearing to    discuss what
       further actions are needed , e.g. , completion of interrogatories. Once these
       preliminary actions are completed , a court date is set, at which time , the
       putative father may deny the allegation. The judge orders blood tests and
       subsequently makes a paternity determination.     Failure of   he putative father
       to appear for set hearings or blood tests results in a default judgment of
       paternity.

                            PROGRA ADMISTTION
CSE Administration: State

Case Management
      Cae management is a combination manuaVautomated system. There is an
      automated data base of case information, but site personnel must also
       maintain paper fies for information the automated system does not capture as
       well as for backup. Case tracking is partly a manual procedure performed by
       the caseworkers and partly an automated procedure which tracks a series of
       case action codes. The system can do some automated document generation.

Staffing
       CSE staff are specialized by function: intake , obligation (includes ' locate and
       voluntary acknowledgement), enforcement, legal (for contested cases),
       URESA, and probation (for women who claim abandonment).

       The site improved staffing effectiveness and the locate function by upgrading
       clerical position to a " locate agent" . Then they were able to hire additional
       locators from a pool of more qualified people. They also have a specialized
       position of a blood test agent which has enabled them to save time in
       completing the tests.

Contract for Servces
      District Attorney s office to provide assistant DA' s for paternity establishment
      cases. Special Assistant to the Attorney General for legal servces involving
      some cases where the putative father does not respond to CSE notification
       letters.

       Equifax Credit Bureau for location information on putative fathers.

                      CONTACf FOR MORE INORMATION

       Ms. Helen Kearns , Regional Manager        Mr. Russell Eastman , Manager
       Office of Child Support Recovery           College Park Office
       878 Peachtree Street, Room 529             Offce of Child Support Recovery
       Atlanta , GA 30309                         1568 Wilingham Dr. , Suite G
       Telephone: (404) 894- 4121                 College Park, GA 30337
                                                  Telephone: (404)    669- 3444
                    COK COUN (alCAGO), IlOIS

                                   DEMOGRAflCS

1986 State Out of Wedlock Births :       47 843


1986 County Out of Wedlock Births: 26, 304
    estimated)

1988 County Population :   5, 284, 300


CSE Caseload Description
      The majority of the caeload is AFC. The average age of the custodial
      parents is mid- 20' s. Most clients are black although the his panic   case
      population is increasing.

                   PATERN ESABLISHM PROC
Method of Intake
      AFC and CSE are not co- located. AFC collects some information on the
      putative father; CSE routinely does a follow-up intervew 3 to 4 weeks later.
      The site has 5 pilot project offces where CSE workers are co- located with
      AFC and intervew mothers the same day they apply for AFC.
      Responses indicated that CSE believes AFC gathers useful information that
       is not passed on to CSE The site has proposed, with Federal approval
       pending, a system change which would allow AFC and CSE to share a
       common client/responsible relative data base.

       The site, funded by DHHS, is also piloting Project Advance which targets the
       needs of young mothers. At least once a week a family support specialist
       intervews the mothers at the pilot offces after the mothers have participated
       in a workshop to discuss what child support is and the advantages of paternity
       establishment. Although findings are preliminary, the workshop participants
       seem to view the process as less adversarial, are better prepared for the
       intake intervew, and are more willng to cooperate.

Penalty for Non- Cooperation
       Removal of the mother from the grant.

Blood Tests
      Beginning in 1988 when their funding for blood testing increased from $90 000
      to $200, 00, CSE paid for more tests intially, and then. tried to collect from
      whomever requested the test. Because " discovery could begin sooner,
      timeliness and numbers of settlements improved. Effective October 1989 the
      site changed blood testing from a Cook County hospital to an agreement with
      Genetic Design. Legal representatives were informed they could order blood
      tests in all contested cases at the time of the first hearing.
Method of Adjudication
      State law requires that paternty establishments must occur in court. First , a
      summons is sent telling the putative father to appear in court with proof of
      employment/ages. If he appears , he is read his rights and questioned
      regarding the paternity allegation. If he does wish to admit paternity, court
      staff intervew him and set a support amount. The judge then signs the order.

      Procedures for a contested case are the same until the putative father denies
      paternity. Then , a blood test is ordered , a public defender is assigned to
      represent the father, interrogatories/depositions are done and the case is ready
      for court. The putative father may admit paternity after the blood test results
      or he may request a jury trial. During this process , if he misses two court
      dates , a warrant for his arrest is issued.

      A key improvement was to increase their legal staff and courts to three full
      day courtrooms and four suburban courtrooms. Also staff from CSE and the
      State Attorney s Offce brief individual judges on the specific requirements and
      problems of child support enforcement law. In July 1989, CSE began a pilot
      project with the Ilinois Task Force on Child Support for expedited paternity
      adjudication at the court servng the   Project Advance participants.

                         PROGRA ADMISTTION
CSE Administration: State

Case Management
      Cae management is a combination manual/automated system. Case
      information, tracking and appointments are automated. After data       entry of
      legal actions, generation of certain legal documents is automated.
Staffng
      CSE paternity establishment staff are not specialized. An improvement was
      to increase their intake and legal staffs. The benefits were quicker case
      processing, backlog reduction and better   servce to the mother since CSE legal
      staff was available to meet her before court

Contract for Servces
      Cook County State Attorney s    offce to serve as legal representative of the
      CSE offce and the Sheriffs offce for legal servce.

                       CONTACf FOR MORE INORMTION

      Mr. Charles Kirian, Chief
      Division of Child Support Enforcement
      Ilinois Department of Public Aid
       32 W. Randolph, 9th Floor
       Chcago,   IL 601
      Telephone: (312)    793- 3291
                MAON COUN (INIAAPUS), INIAA

                                   DEMOGRAIlCS

1986 State Out of Wedlock Births :    16, 657


1986 County Out of Wedlock Births :      4   894
    estimated)

1988 County Population :    791


CSE Caseload Description
     The case load is 80% AFC with custodial parents under age 25.              Racial
     composition is 50% white and 50% black.


                    PATERN ESABLISHMNT PROC
Method of Intake:
      AFC and CSE are not co- located. AFC collects some information on the
      putative father. CSE reported that its staff frequently has to re- do the
      intervew because the information from AFC is incomplete or inaccurate.

Penalty for Non- Cooperation
      Removal of the mother from the grant.

Blood Tests
       Blood is drawn at a local laboratory. The site uses 4 different labs for blood
       analysis depending on what needs to be performed and what price the lab
       offers.

       AFC pays for the tests initially for welfare cases. If the putative father is
       proven the father,   the site tries to collect costs   from him. A successful
       practice has been to issue contempt citations for his failure to reimburse
       AFC.
Method of Adjudication
       Begig in 1986 the site established paternity and support orders without a
       court appearance by using a " consent decree. " Handled by paralegals, a
       consent decree formalies prior agreements between the parties regarding
       paternity, visitation, support amount, wage withholding, medical insurance , and
       name change. The Deputy Prosecutor reviews/files decree with the court
       where a judge signs it. This process improved their timeliness and eliminated
       the judicial backlog.

       Volunta paternity court is held for men who acknowledge            paternty but do
       not agree on support amounts or other issues.          Final decisions are   made by a
                     fathers who do not admit paternity are legally
       judge. Putative                                                       served with a
       summons, and blood tests are scheduled. If bloo analysis includes him, and
      he stil denies paternity, a   trial date is set. They always use DNA tests for
      tried caes.

      They do not have a default judgment " per          man doesn t respond to
                                                    se . If a
      the summons , they cannot issue a default judgment. However, if he has
      appeared in court once, the court may determine paternity in his absence.


                          PROGRA ADMISTTION
CSE Administration: State

Case Management:
      Case management is a combined manual/automated system. Pleadings and
      court caes are reviewed manually by managers or attorneys; Case tracking
      data and review for required actions is computer generated with manual
      follow-up by the staff.

Staffng
       Paternity teams, composed of functional specialists , handle cases from intake
       through adjudication. Respondents believe the client gains a sense of
       continuity and familarty with the CSE workers. Site respondents also believe
       it increases the effciency, program knowledge and accountabilty of the
      workers.

      A blood test consultant, acting as a liaison between the blood laboratories and
      CSE clients , coordinates appointments and negotiates payment. Paralegals are
      trained to prepare legal documents, thus giving the Deputy Prosecutor more
       time for adjudication.



Contract for Servces: None.


                      CONTACf FOR MORE INORMTION

       Mr. John Owens, Administrator
       Child Support Division
       143 Eat Market Street
       Indianapolis , IN 46204

       Telephone: (317)    263- 6191
                    PRICE GEORGE'S         OOUN, MAYU

                                   DEMOGRAHI

 1986 State Out of Wedlock Births:       198

 1986 County Out of Wedlock Births :    not available


 1988 County Population :   701,


 CSE Caseload Description
       The caseload is 30% AFC and 90% employed. The custodial parents ' age
       range is 17 to 28. Racial composition is 80% black and 20% white/hispanic.


                     PATERN ESABLISHMNT PROC
 Method of Intake
       AFC and CSE are not co-located.         For non-   AFC cases, CSE has the sole
       responsibilty for collecting information on the putative fathers. For welfare
       cases, however, AFC is the primary information gatherer. CSE reported
       that follow-up intervews were necessary because AFC does not consistently
       obtain the needed information.

 Penalty for Non- Cooperation
        Removal of the mother from the grant and designation               of a new grant payee.
        CSE has the authority to apply the penalty.

 Blood Tests
       Blood is drawn in the Court building. CSE pays for all blood tests initially.
       They then seek reimbursement from the parents: from the putative father if
       the tests did not exclude him; from the mother for non-AFC cases if the
       putative father was excluded.

        The site contracts for blood testing through open bidding. The contract
        lengts were shortened and provided for other servces such as the availability
        of exprt testimony at no additional charge. Test costs decreased from $550
        to $185.





information
 Method of Adjudication
      Default judgments are not permissible. Putative fathers are fist
        the allegation by a letter sent through the mail.
        voluntary consent and the court date.
        voluntarily acknowledge paternity at the CSE offce
                                                             It includes
                                                                                    notified of
                                                                                     about
                                                 If he wishes , the putative father may
                                                                  without a court
        appearance or at the first hearing (arraignment). He may sign a short form
        (admitting paternty only) or a long form (admitting paternity/agreeing to
        support). The father s rights are explained verbally and are printed on the
        form he signs. His acknowledgement is then entered into the court records.
      If the putative father does not respond to the letter or appear for the
      arraignent, he is served with a summons (if he cannot be served, the case is
      returned to locate). If he ignores the summons, a warrant is issued for his
      arrest. As soon as he denies paternity, bloo is drawn immediately in the
      Court building and he is notifed of the next court date. After the results are
      received, the judge rules on the findings. A putative father can request a jury
      trial, but few do. For AFC cases, if the putative father denies paternity and
      the mother does not appear at the hearing, the case is continued. CSE will
      sanction the mother for non-cooperation and try to convice her to appear
      with the child for the next hearing and blood test.


                         PROGRA ADMISTTION
CSE Administration : County

Case Management
      The county CSE case management system is automated with the ability to
      track, age and identify needed actions for individual cases.

Staffng
       Staff are specialized by function. The State CSE staff performs intake and
       locate. CountyCSE is concerned with confrontation, adjudication (including
       blood testing), support orders and URESA cases. In 1987 County CSE
       increased their staff by two case workers and one clerical which helped to
       reduce their backlog and to improve case processing time.

       AFDC has a Court Liaison Offcer who arranges transportation for clients
       with volunteer drivers so they will not miss their court hearings. A Blood Test
       Coordinator arranges test appointments and checks for biling errors.

Contract for Servces
       Maryland Medical in Baltimore for blood analysis.
       Sheriffs Department for legal servce.


                       CONTACf FOR MORE INRMTION

Ms. Iris Mapp, Administrator             Ms. Meg Sollenberger, Exec. Director
Dept. of Social Servces                  Offce of CSE
Child Support Enforcement                14701 Governor Oden Bowie Dr., Ste. 406
6111 Ager Road                           Upper Marlboro, MD 20772
 Hyattsville , MD 20782                  Telephone: (301)   952- 5453
 Telephone: (301) 952- 4820

 Judge David Ross
 Courthouse
 Upper Marlboro, MD 20772
 Telephone: (301) 952- 3896
                    WAYN OOUN (DETOIT, MIcmGAN

                                  DEMOGRAIDCS

1986 State Out of Wedlock Births :      26 620

1986 County Out of Wedlock Births :      10 213
    ( estimated)

1988 County Population :   2 122, 800


CSE Caseload Description
      The majority of the caseload is AFDC with the custodial parents in their late
      teens to early 20' s. Racial composition    is 50% black, 50% white.


                    PATERN ESABUSHMNT                     PROC
Method of Intake
     AFDC collects no information on the putative father; CSE has the primary
     responsibilty. CSE workers are located in each AFC offce. The mother
     initially intervewed by CSE the same day she applies for welfare benefits or
     at the second intervew when she brings in supplemental case information.

Penalty for Non- Cooperation
       Removal of mother from the grant and designation of a new grant payee.

Blood Tests
      Blood is drawn at the Friends of the Court (FOC) building. CSE pays for
      blood tests on AFDC cases. If the putative father is capable of paying, they
      will seek reimbursement from him.

Method of Adjudication
     The County is eIppowered to act as the AFC applicant s agent , so the
     mother never has to appear after the initial CSE intervew, except for blood
     tests. At intake the mother is asked to telephone the putative father and to
       request that he join her there to discuss   paternity. Failng that, a letter
       notifng him of the allegation is sent. If he wishes,    he may then voluntarily
       acknowledge paternity to a s.upport specialist in the CSE offce. Both parents
       sign an acknowledgement which is filed with probate court. No court
       appearance is necessa. Hospital admissions of paternty are also acceptable
       to enter a probate judgment.


       For putative fathers who stil have not responded, the next step is to forward
       the case to FOC . for legal action beginning with a notice of paternity action.
       The FOC automated system also schedules the case into the docket for every
       possible hearig/action with due dates.      The putative father is advised in
       wrting of the preliminary hearing, the schedule and his option to admit
       paternity.
     If the man wishes to deny paternity he appears at a preliminary hearing
     without a judge. He is advised of his rights and set up for blood tests. If he
     refuses a blood test, he confers with a referee (hearg offcer) and possibly
     judge whose ruling is fial. Afer a blood test does not exclude him but he stil
     denies paternity, the cae is scheduled for trial.

      After failng to appear for a preliminary   hearng and after " good servce "   is

     achieved , a putative father, who does not appear at other mandated hearings
     will have a Default Order of Filation/Order for Support entered against him.
     This is also true for defendants who appear for the preliminary but miss
     subsequent hearings. A defendant cannot be defaulted , however , for failure to
      comply with an Order for Blood Testing, although he can be held in
      contempt.


                            PROGRA ADMISTTION
CSE Administration: State

Case Management
      Case management is a combined manuaVautomated system. As noted above
      their automated FOC system will schedule cases for every possible action and
      produce legal documents. For tracking and aging paternity cases before they
      reach FOC, their process is primarily manual. The site is in a transition
      period, however, where they are building an automated database which will
      eventually support totally automated case management.

Staffng
      CSE staff are generalists and are not specialized by function.

Contract for Servces
      They have a cooperative agreement with the Friends of the Court to handle
      both establishment and enforcement procedures. If CSE does not obtain
      voluntary acknowledgement, the case is sent to Friends of the Court for
      additional location work, legal servce and paternity establishment.


                        CONTACf FOR MORE INORMTION

       Mr. Fred Goddard, Area Manager
       Michigan Department of Social Servces
       Offce of Child Support

          1200 6th Street, Suite
          Detroit, MI 48226

          Telephone: (313)    256-1320
          DAKOTA COUN             (SOUT OF ST. PAUL), MIOTA

                                  DEMOGRAIDCS

1986 State Out of Wedlock Births :     10 721


1986 County Out of Wedlock Births :      not available


1988 County Population :   253, 400


CSE Caseload Description
      The caseload as of December 1, 1989 was 61% AFC. The AFDC custodial
      parents are primarly in their early 20' s with 30% to 40% of them working, at
      least part- time. The racial composition is 8085% white with some black
      hispanic and southeast Asian clients.


                    PATERN ESABUSHM PROC

Method of Intake
      AFC and CSE are not co-located. AFC is the primary information
      gatherer on the putative father. CSE does a follow-up intervew when
      needed, usuaUy by telephone. CSE reported that AFC does not consistently
       obtain aU the information needed.

Penalty for Non- Cooperation
      Mother is removed from the grant. A protective payee is assigned , and the
       site pays her bils in her behalf

Blood Tests
      Blood is drawn at a local hospital. CSE pays for the blood tests initially.
      Sometimes , if the man is proven the father, CSE wiU try to collect from him,
       but usually the debt is forgiven.

Method of Adjudication:
     Putative fathers who wish to admit paternity are informed verbally and in
     wrting by the paralegals (County Attorney s Offce) of their rights and
       responsibilties. Paralegals also prepare the necessary   documents. The parties
       subsequently meet with the assistant County Attorney. If they can agree to all
       terms, including support, the father stipulates, and the judgment is entered
       through the court. Court       appearance is not required.

       Putative fathers who do not admit paternty are legaUy served with a
       summons/complaint. No response to the complaint or appointment for blood
       tests leads to a default judgment. No response to requests for inormation
       after the blood test is completed can lead to a summary judgment. Full but
       contesting responses require a hearing. Support orders for default and
       summary judgments are negotiated separately by specialied CSE staff.
                           PROGRA ADMISTTION
CSE Administration : County

Case Management
      Case management is a combined manual/automated system. CSE uses an
      automated database which contains case information and the site s collection
      mechanism. The database is used for statistical analysis of the caseload and
      of the individual caseworkers. Tracking of paternty cases is primarily a
      manual procedure performed by the caseworkers.

Staffing
       The CSE staff is not specialized by function although the entire CSE staff
      including its contracted personnel , does have an effcient division of labor
      created by 2 key improvements. CSE does intake , location , routine child
      support orders and collections. The County Attorney handles all paternity
      work and more legally child support complicated cases.

       In 1987 two paralegals and one attorney were added to the County Attorney
       staff for a total of 2 paralegals and 3 attorneys. This staff spends the majority
       of their time on paternity establishment. Use of paralegals   for routine
       paternity work freed up attorney time for more complex cases. Early in 1988
       the responsibility for negotiating support orders for certain case tyes was
       moved from the County Attorney to the CSE offce.        Numbers of completed
       case actions and timeliness improved for both offces.

Contract for Servces
       Dakota County Attorney s Offce (3     Ff attorneys and 2 paralegals) for CSE
       legal servces including paternity.

       Blood analysis for paternity establishment done by Genetic Design, North
       Carolina.

       County sheris offce    for personal servce of summons/complaint to the
       putative fathers.


                       CONTACf FOR MORE INORMTION

 Mr. Phil Dalseth                         Ms. Diane Anderson
 Collections Servces Supervsor            Dakota County Attorney s Offce
 Dakota County Human Servces              1560 West Highway 55
 33 East Wentworth Avenue Ste. l66        Hastings MN 55033
 West St. Paul, MN 55118                  Telephone: (612) 438-4438
 Telephone (612) 450-2628
                          PHIELHI PENSYLVAN
                                   DEMOGRAHICS

1986 State Out of Wedlock Births :    39 298


1986 City Out of Wedlock Births :    14 671
   (estimated)

1988 City Population :   1, 647


CSE Caseload Description
      The caseload is primarily AFC with custodial parents ranging in age from 16
      to 40. Racial composition     is 90% black with the other 10% being mostly
      hispanic.


                       PATERN ESABUSHMNT                   PROC
Method of Intake
       AFC and CSE are not co-located. AFC collects some information on the
       putative father with routine follow-up intervews by CSE. Clents must see a
       CSE worker before they are approved for AFC. Since approximately 2 500
       people apply for AFC servces per month , the initial CSE intervew is
       usually brief.

       Two AFC offces are piloting a project where AFC workers are trained to
       conduct the entire intake intervew with the mother. Clients who are not
       authoried to receive AFDC and who do not wish to pursue child support
       once public aid is denied are not referred to the CSE offce. The quality of
       the information is improved as well. Case processing becomes faster and
       concentrates on paternity establishment tasks. The site hopes to expand this
       project.

Penalty f r Non- Cooperation
       Removal of the mother from the grant.

Locate
         Philadelphia, which also locates missing children , has investigators that locate
         about 500 fathers a month. In addition to the links (many automated) to a
         wide variety of information sources , they also work, if required by the case
         neighborhood churches, bars and grocery stores to obtain information about
         the father.

 Blood Tests
       Blood is drawn at the Family Court building. CSE pays for the blood tests
       initially. If the putative father is proven the father, CSE will seek
         reimbursement from him.
       In March 1989, the site negotiated a two-sample blood draw with one
       contractor to combat the problem of redraws when samples are lost or
       misplaced. Redraws caused time delays in cae adjudications.

Method of Adjudication
     The putative father is informed of the paternity allegation either by certified
     mail or by legal servce. A pre- trial conference with a hearing offcer is
     mandatory. The putative father may admit paternity at this time by signing an
       acknowledgement form which becomes an approved order           after a judge
       signature. A court appearance is not necessary for the father.

       If' the man fails to appear for the initial pre- trial conference, he is personally
       served with an Order to Appear for a rescheduled conference. His failure to
       appear a second time after successful personal servce may result in a warrant
       for his arrest.

       If he denies paternity at the conference , the putative father is advised of his
       rights and scheduled for blood tests. When the blood is drawn, he is served
       with a subpoena to appear in court on a specified date. The District Attorney
       pre- tries every case. The DA discusses blood test results and tries for a
       voluntary acknowledgement. Many cases are resolved before trial this way.
       If this effort fails , the case is tried before a judge or a jury if requested. If
       the man fails to appear for trial, a default judgment is ordered.


                           PROGRA ADMISTTION
CSE Administration:      State

Case Management
       Paternity caes are indexed manually with welfare cases separated from non-
       welfare cases. Case tracking and aging are done manually. The enforcement
       part of the child support process is automated. Late notices, appointment
       letters , amounts owed and contempt letters are computer- generated.

Staffing:
       CSE staff is specialized by function: intake , locate , pre- trial hearings and
       enforcement. Oerical workers are trained to process the paperwork for
       volunta acknowledgements and to prepare other          needed forms.


Contract for Servces:
       DA' s   offce serves as the prosecutor in contested cases.


       Blood analysis is done by Genetic Design.

       The State contracts with the Family Cour of Philadelphia to do paternity
       establishment, support enforcement, collections and all other facets of the
        process.
             CONTACf FOR MORE INORMTION

Mr. Daniel F. Madonna, Esq.
Asistant Chief

Domestic Relations Branch
Court of Common Pleas
1801 Vine Street
Philadelphia, Pennsylvania 19103

Telephone: (215) 684262

Ms. Mary Lou Baker, IV- D Director
Court of Common Pleas
160 Walnut Street, Room 1010
Philadelphia, Pennsylvania 19103

Telephone: (215)   875- 5602
                   SHEY COUN (MHI),                   TEEE

                                 DEMOGRAHICS

1986 State Out of Wedlock Births :   16, 767


1986 County Out of Wedlock Births :    5   527
    ( estimated)

1988 County Population :   819 800

CSE Caseload Description
      The majority of the caseload is AFDC. The custodial parents ' age range is
      to 65 with most in the 20 to 42 range. Racial composition is 85% black and
      15% white.

                    PATERN ESABLISHMNT PROC
Method of Intake:
      CSE and AFC are not co-located. CSE reported that AFC is the primary
      information gatherer on the putative father with follow-up intervews by CSE
      only when needed. CSE also reported, however, that AFC does not
      consistently obtain the needed information, such as the full name and address
      of the putative father.

      Some AFC workers are located in the hospitals to explain servces available
      to the mothers, including Child Support servces.

Penalty for Non- Cooperation:
       Removal of the mother from the grant and de ignation of a new grant payee.

Location
       As a one- time  project, a local newspaper published a list of men CSE was
       tryng to locate for open but unworkable cases. Businessmen, individuals and
       relatives called in information that led to the location of absent fathers. The
       site respondent believed they had " moderate success " with it and said they
       may try it again.

Blood Tests
      Blood is drawn at the Juvenile Court building. CSE program pays if the
      putative father is excluded or indigent. If he was not excluded, the putative
      father pays for the test; the site allows monthly installments as low as $10. In
      some non-AFC caes the mother pays. Local agencies bid for blood tests.
      Th lowered the cost from $60 to $240 and the elapsed time to receive
      results dropped from months to 2 weeks.

Method of Adjudication
       Putative fathers are informed of the paternity allegation first by letters sent
       through the mail. CSE makes two attempts in this way. If a putative father
     wishes to admit paternity voluntariy, he may do so at the Child Support office
     where he is advised of his rights verbally and in wrting by a CSE attorney.
     He signs a parental consent which is then notaried , and formally entered into
     the court records. A court appearance is unnecessar. He may also come to
      CSE to deny paternity; he is then served and given a court date.

      If a putative father does not respond to the fist letter(s), he is next served
      with a summons to appear on a specific date either by certified mail and/or
      person. Failure to appear can result, at the Court s discretion, in a warrant
      for his arrest or a default judgment of, paternity. When the putative father
      appears, but denies paternity, a blood test is immediately ordered and
      performed. Also ,  the man is then informed in wrting of his next court date
      and that failure to appear will mean a default judgment. If the tests do not
      exclude him, the putative father may request a jury or non-jury trial.

      The Court specializes in Chld Support caes, and thus, CSE does not have to
      compete with others for docket time. In addition, the site uses mediators in
      the CSE offce and referees for paternity hearings.

                          PROGRA ADMISTTION
CSE Administration: State

Case Management
      At the time of the on-site visit, the system for trackig and aging paternity
      cases was totally manual. In June 1989, installation of an IBM System 36
      allowed them to begin some basic automated cae tracking.

Staffing
        Caseworkers , mediators and supervsors are not specialized. Specialized staff
       are: 1) process servers who serve subpoenas, summons , make or assist in
       making arrests; 2) female call assistants who are used to work with non­
       cooperative mothers to obtain information; 3) a paternity coordinator that acts
       as a liaison between the attorneys and the court.

Contract for Servces
       Local hospitals for blood tests. Private attorneys to handle paternity cases.
       They were selected by a staff attorney to assist in reducing case backlogs.
       They have also assisted in improving timeliness in case processing and in
       providing better servce to the client. Credit   bureau for locate information
       sharing.

                       CONTACf FOR MORE INRMTION

       Mr. Arhur Vaught

       Director of Child Support Servces
       Juvenile Court of Memphis and Shelby County
       616 Adams Avenue
       Memphis , TN 38105
       Telephone: (901) 5288593
                   SALT LA     COUN      (SALT   LA CI, UTAH
                                    DEMOGRAHICS

1986 State Out of Wedlock Births:      575

1986 County Out of Wedlock Births        988
    ( estimated)

1988 County Population:      720,

CSE Caseload Description:
     The cae load is approximately 75% AFC with the custodial parents between
     the ages of 16 and 25. The racial composition is about 80% white , 15%
      hispanic and small percentages of blacks and Asians.




                     PATE ESABLISHMNT PROC
Method of Intake
      AFC and CSE are not co-located. AFC collects some information on the
      putative father with routine follow-up intervews conducted by CSE. CSE
      believes that AFC does not consistently obtain the needed information.
      CSE has tried to improve intake by designing the forms used by AFDC to
      intervew the mother regarding Child Support information.

      A woman , who says she doesn t know who the father is , is sometimes required
      by CSE to obtain sworn affdavits from people who will attest that the father
       is unknown to them or to her.

Penalty for Non-Cooperation
       The mother is removed from the grant. In addition , she does not receive a
       check; the AFC offce instead pays her bils in her behalf.


Blood Tests
       Bloo is drawn at several local laboratories. CSE pays for the test initially
       and later seeks reimbursement from the putative father if he wasn t excluded
       or from the non-AFC mother if the putative father was excluded. In early
       199 the site plans to have blood draws in the Salt Lake CSE offce.
Method of Adjudication:
     The putative father is usually notified of the paternity allegation first by
       telephone and then by letter. If he wishes to voluntarily admit paternity, he
       can do so without a court appearance at the CSE offce. There he is advised
       of his rights and asked to sign a voluntary acknowledgement which generally
       includes a support amount. This acknowledgement is then reviewed and
       signed by the attorney and entered into the court records by a judge
       signature.
      If the putative father does not respond to the telephone call or letter , he is
      served with a summons. Failure to answer results in a default judgment of
      paternity. When he responds with a denial, the Attorney General's offce
      orders blood tests which the putative father cannot refuse. If the blood tests
      have not excluded him, and he stil denies paternity, the case is tried , with a
      jury, if so requested. A father may sign a voluntary acknowledgement at any
      time during this process.


                            PROGRA ADMISTTION
CSE Administration:      State

Case Management
      Cae management is a combined manual/automated system. Case narratives
      some locate information and some forms are computeried. Case referrals
      from AFC are manual , as is tracking for paternity cases. An improvement
      was revision of forms for greater standardiztion and simplicity.

Staffing
       Paternity teams work only paternity establishment cases. There is some
       specializtion by function within the teams. Team members can provide
       backup for each other and stil provide expertise in certin program areas
       e.g. , location. The site respondents believe this has increased effciency and
       timeliness of the workers.

       Teams that were successful with voluntary paternity acknowledgements trained
       less successful teams on intervewing techniques. The site was also able to
       hire additional locate staff. One worker does presentations to large
       companies in the area to explain the work of CSE and to solicit location
       information from company records. Their improvement goal was to increase
       voluntary acknowledgements, which they achieved.

Contract for Servces
      They contract for blood analysis primarily with Genetic Design of North
      Carolina and Asociated Regional and University Pathologists in Utah. The
      Attorney General's offce has the contract to file stipulations and to handle
      contested cases. Constables provide legal servce to the putative fathers.


                         OONTACf FOR MORE INORMTION

           Mr. Jim Kidder, Bureau Director
           State of Utah , Department of Social Servces
           120 North 200 West
           Salt Lake City, UT 84103

           Telephone: (801)   538-4412
